<html>
<title> - KOSOVO AND SERBIA: A PATHWAY TO PEACE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                 KOSOVO AND SERBIA: A PATHWAY TO PEACE

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2013

                               __________

                           Serial No. 113-23

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-547 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Jonathan Moore, Director, Office of South Central European 
  Affairs, Bureau of European and Eurasian Affairs, U.S. 
  Department of State............................................     9
Daniel Serwer, Ph.D., professor, School of Advanced International 
  Studies, Johns Hopkins University..............................    30
Ms. Shirley Cloyes DioGuardi, Balkan Affairs adviser, Albanian 
  American Civic League..........................................    36
Mr. Obrad Kesic, senior partner, TSM Global Consultants, LLC.....    53
Mr. Roland Gjoni, JD, LLM (former senior legal and policy advisor 
  to Effective Municipalities Initiative in Kosovo)..............    61
Mr. Robert A. Churcher (former director, International Crisis 
  Group in Prishtina)............................................    70

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats: Prepared statement..............     3
Mr. Jonathan Moore: Prepared statement...........................    11
Daniel Serwer, Ph.D.: Prepared statement.........................    32
Ms. Shirley Cloyes DioGuardi: Prepared statement.................    39
Mr. Obrad Kesic: Prepared statement..............................    55
Mr. Roland Gjoni: Prepared statement.............................    63
Mr. Robert A. Churcher: Prepared statement.......................    72

                                APPENDIX

Hearing notice...................................................   100
Hearing minutes..................................................   101
Ms. Shirley Cloyes DioGuardi: Material submitted for the record..   102
The Honorable Dana Rohrabacher: Material submitted for the record   104

 
                 KOSOVO AND SERBIA: A PATHWAY TO PEACE

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call to order this hearing of the 
Foreign Affairs Subcommittee on Europe, Eurasia, and Emerging 
Threats.
    Today's topic is Kosovo, or Kosovo--I keep changing the way 
I pronounce it just so I won't offend anybody, or offend 
everybody--and Serbia: A Pathway to Peace.
    After the ranking member and I each take 5 minutes to make 
opening remarks, each member present will have 1 minute to make 
an opening statement, and alternating between majority and 
minority members. And without objection, all members may have 5 
days to submit statements, questions, or extraneous materials 
for the record. And hearing no objection, so ordered.
    This hearing was postponed from an earlier date, but the 
delay has proven most fortunate. Because it was just last 
Friday that after 6 months, the Prime Ministers of Kosovo and 
Serbia initialed an agreement mediated by Lady Ashton of the 
European Union. However, the document that emerged last week 
was entitled, ``First Agreement of Principles Governing the 
Normalization of Relations.'' So it is not the end of the 
process, and as it implies there is much more to come.
    So today's hearing, we will look at what has been 
accomplished and what still needs to be done. Just this week, 
Kosovo's Prime Minister summed up the sentiment on both sides, 
and that is, and I quote, ``Don't expect us to start loving 
each other.'' So the divisions are still there and they run 
very deep. A huge issue has been the status of the four 
overwhelmingly Serbian majority municipalities in northern 
Kosovo, which borders on Serbia.
    The Kosovars fought a war, a brave war and a courageous war 
for independence, because they did not want to be ruled by the 
Serbs. In the same token, the Serbs do not want to be ruled by 
the Kosovars. The principle of self-determination, I believe, 
should apply to everyone. And this wasn't a case over the years 
where American policy, or at least my involvement in it as a 
person who is deeply involved in these issues, was never based 
on because I like Kosovars more than I like Serbs or vice 
versa, but always that the principle of self-determination is 
something that is written down in the American Declaration of 
Independence and should be part of the heart and soul of what 
Americans are all about.
    The United States and NATO supported Kosovo's independence 
with the use of military force, and it has also sided with 
Kosovo over who should control the northern Serb communities. 
Of course, they have decided Kosovo. The Serbs have wanted 
autonomy for municipalities, and Serbia has been supporting 
``parallel institutions'' to provide local services. While this 
first agreement favored Kosovo on the principle of 
``authority'' over the northern disputed territory, the Serb 
communities will control their own areas of economic 
development, education, health, urban and rural planning. Thus, 
Kosovar authority, here, you could read that ``sovereignty,'' 
in those areas is a facade. It is an illusion which will come 
back to hurt both parties if an illusion just is allowed to sit 
in order to take one step more in a certain direction.
    The core of sovereignty is the control of security forces. 
The agreement places all police and security personnel under 
central Kosovo command. However, the northern regional police 
commander will be a local Serb appointed by the Kosovo 
Government from a list provided by Serb mayors. The composition 
of the police force will reflect the ethnic composition of the 
population of the four municipalities. So it will be a Serb 
force, under a Serb leader, supposedly enforcing Kosovo law. 
There will be a division of the National Appellate Court 
established in the north with a majority of Serbian judges to 
hear cases from the Serbian municipalities.
    Serbia has not recognized Kosovo's independence, and still 
stands in the way of Kosovo joining the United Nations or other 
international bodies as a sovereign state. Both did agree not 
to block each other's path into joining the EU. I don't know 
what that says about people who want to join the EU at this 
point, sort of wishing each other good luck. The New York Times 
called this a ``power-sharing agreement.'' What it doesn't do 
is satisfy the people most affected, and that is the people of 
northern Kosovo. As long as there is a clash of identities and 
a deep distrust borne of centuries of conflict, there is a 
likelihood of more trouble. Negotiations between governments 
can lead to compromise, but they can also heighten tensions 
when core values are at stake.
    Perhaps it is time to consult the people living in the 
disputed areas and see what they want to do. The people living 
in predominantly Serb areas of northern Kosovo should be 
allowed to vote in a referendum for which country they would 
like to be integrated into. The parallel referendum should be 
held in predominantly Albanian areas in southern Serbia and 
surrounding areas giving them the same choice. And that is an 
American concept that the people of certain areas have rights 
to self-determination through the ballot box. But I don't think 
anyone would be surprised by the outcome of there was such a 
vote.
    The borders of both Serbia and Kosovo could be adjusted in 
accordance with the desires of the people who are living within 
those borders. Territory of about equal size could be exchanged 
to establish a new equilibrium in the region. The result would 
be two much more unified countries without the constraint and 
irritation of trying to rule over unhappy minorities who are 
looking across the border for help and sparking disputes.
    So I would be interested to hear from our panelists why 
such a democratic process would not be welcome, and what is 
truly the way to normalize relations between Serbia and Kosovo. 
With that said, I turn to the ranking member, Mr. Keating.
    [The prepared statement of Mr. Rohrabacher follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Keating. Thank you, Mr. Chairman, and thank you for 
holding this timely hearing. We are also pleased to be joined 
by Ranking Member Engel who has extensive firsthand knowledge 
and experience in the region.
    In the last week, we witnessed both Kosovo and Serbia take 
immense strides toward greater stability and prosperity for 
their people. Through agreeing to the EU-brokered April 19th 
agreement, both nations did something rather unprecedented in 
the region. They set aside their deep-rooted past to focus on 
the future. If they continue on this path, this week may 
signify a turning point for the Balkans as a whole. Of course, 
there have been many notable successes in the region, but some 
of that progress has been stalled by obstructive policies that 
have prevented budding nations from joining Western 
multilateral institutions like NATO or the EU.
    If implemented correctly and thoughtfully this agreement 
can place both Kosovo and Serbia on a path toward EU accession, 
which is certainly a positive move for both nations and a 
vision that our own troops helped to protect. Yet, peace is 
fragile, and in the Balkans this fragile nature can at times 
take a life of its own. For this reason, I encourage this 
committee to look forward just as these nations have decided to 
do, especially since there is much left to be done. Aside from 
the practical matter of implementing this agreement, the two 
sides need to address respective corruption and rule of law 
issues. Further, the region has much to gain from attracting 
increased investment which has the potential to encourage 
cooperation over division.
    Finally, and perhaps most important, both countries must to 
their best to support tolerance and leadership amongst the 
youth in Serbia and throughout Kosovo. There are already a 
number of NGOs in this region, like the National Democratic 
Institute and the institute Crisis Group and others that foster 
this type of collaboration, and their work should be 
encouraged. There is absolutely no need for your younger 
generations to get wrapped up in battles of their grandparents 
and, ultimately, I don't believe that anyone within Kosovo and 
Serbia truly wants their children to repeat the regional cycle 
of violence that either has experienced.
    Director Moore, it is good to see you again, and I look 
forward to your testimony as well as the testimony of our 
second panel of witnesses. With that, thank you, Mr. Chairman.
    Mr. Rohrabacher. We will now have 1-minute statements by 
the rest of our panel. Judge Poe?
    Mr. Poe. Thank you, Mr. Chairman. The world is seeing the 
results when out-of-towners, as I call them, go into an area of 
the world and start drawing a new map and forcing people to 
live in their specific areas. Outsiders have forced people to 
live together who really don't want to live together. We have 
drawn the boundaries and they do not really reflect the 
historical situation on the ground. I believe Serbia, though, 
has been hard at work to make this work. When it comes to 
identifying the missing from wars, Serbia has done an excellent 
job. It has shared locations of graves, identified bodies 
exhumed, and more countries, I think, in the area need to 
follow Serbia's lead in identifying the missing.
    We also need to recognize that human rights violations 
occur on all sides. Too little attention has been paid to 
ethnic violence against non-Albanians, including Serbs, in 
Kosovo. We have seen the destruction of 100 Serbian gravesites 
and 150 churches destroyed. In February, nine Serbians were 
arrested in Kosovo by Kosovo police outside of a Serb 
monastery, allegedly tortured, released without being charged. 
The accusations of torture were so serious that the EULEX and 
the EU Mission in Kosovo launched an official investigation and 
the 11 accused Kosovo police officers have been suspended.
    I use this as an example to show that human rights 
violations still occur in the region. The good news is in spite 
of all the problems, now Serbia and Kosovo are trying to work 
together, I believe, both in good faith to resolve certain 
issues. As explained by the chairman, last Friday's agreement 
is a good first start. It is important that the rest of the 
world keep these two areas of the world in constant 
conversation and communication and discussion about resolving 
issues that they both are concerned about. When people are not 
talking, bad things occur. So this is a good first step.
    I urge the EU national leaders to formally agree to start 
talks with Serbia at their summit in June. My personal opinion 
is, it is in the best interest of Serbia and the United States 
that Serbia look to the West and not look to the former Soviet 
Union for political dialogue. Just because some deal has been 
worked out since last Friday doesn't mean problems have been 
resolved. There are numerous unresolved human rights cases 
throughout the area. There is a problem with ethnic tension and 
violence, and we must take a stand for all victims of violence 
regardless of who they are and where they are from. Ethnic 
violence is always wrong no matter who does it.
    And I yield back the balance of my time.
    Mr. Rohrabacher. Thank you very much, Your Honor. Next, we 
have a statement from the ranking Democrat on the Foreign 
Affairs Committee, Eliot Engel, who has been deeply involved in 
this issue for at least 20 years. And we were both very young 
and handsome at that time. But Eliot is someone who has kept 
very active in this issue. He understands the area, and we are 
very happy that you have joined us today, and you may use 
whatever time that you choose to consume.
    Mr. Engel. Well, thank you very much, Mr. Chairman, Mr. 
Ranking Member. Thank you for the opportunity to join your 
subcommittee today. As the ranking member of the Foreign 
Affairs Committee, let me say, Mr. Chairman, that we both share 
a long-standing interest in the Balkans, and while I may 
disagree with some of your proposals regarding moving borders, 
you have been a serious and important player in all of these 
issues for so many years.
    We obviously are classmates together. We came to Congress 
together in 1988, and there has been no one who has been more 
serious than you as far as I am concerned in terms of knowing 
these issues, working hard on these issues, and trying to 
resolve these issues. So I look forward to continuing our 
discussions on efforts to bring peace and prosperity to the 
region.
    This hearing is obviously, as the ranking member pointed 
out, very timely as it comes on the heels of an agreement 
reached between the Prime Ministers of Kosovo and Serbia. I 
congratulate Kosovo and Serbia for reaching this landmark 
agreement, and in particular I would like to recognize Prime 
Minister Thaci for his courage and his willingness to make hard 
decisions, and Prime Minister Dacic for his pragmatism and 
forward-leaning vision. The personal involvement and leadership 
of EU foreign policy chief Lady Ashton has been critical to 
this historic agreement. It sends a clear signal of hope to a 
region which longs for an end to conflict and to peoples who 
want to live their lives in peace and prosperity in the 
European Union.
    I was very happy to have a chance to speak with Lady Ashton 
about this region when she was last in Washington a few months 
ago. And yet again, which is another very positive point, this 
is yet another affirmation of the fact that the Republic of 
Kosovo is independent, sovereign, free and permanent. I was a 
leading supporter of independence for Kosovo and am proud of 
how far they have come. It has been 9 years since the EU 
declared a Thessaloniki Summit at ``The future of the Balkans 
is within the European Union.''
    Croatia's July entry into the EU validates the strategic 
vision of last week's agreement. The EU is moving to buttress 
the confidence of the other Balkan States including Kosovo that 
their day is near, and we learn once again that it is the 
shared aspiration of EU membership that binds the Balkan States 
together. The Kosovo-Serbia agreement underscored the 
understanding that the region will only prosper when all of the 
states of the Balkans have joined the European family, and I 
welcome all of them into the EU. The EU as it now offers Serbia 
a date for EU accession negotiations, must also offer Pristina 
what other Balkan countries have already been granted, a clear 
and transparent pathway to future membership.
    I would like to take a minute or so to discuss Kosovo's 
Euro-Atlantic aspirations. Brussels is working with Pristina on 
moving Kosovo toward a Stabilization and Association Agreement 
and toward visa liberalization where Kosovars would be able to 
travel freely to Europe as citizens of their fellow Balkan 
countries can already do. Unfortunately, the progress is 
halting and slow, and unlike its neighbors, every little step 
in Kosovo's progress with Brussels could face a veto by one of 
the five EU non-recognizers of Kosovo independence. While this 
makes the climb even steeper, it makes Kosovo's accomplishments 
even more significant. In the end we must ensure that Kosovo be 
included in Europe along with its neighbors, because otherwise 
we would create a new black hole in the Balkans where our worst 
fears of crime, corruption, and worse could come true.
    Kosovo's pathway toward NATO is equally very important. 
Along with other countries in the region, Kosovo's membership 
in NATO will cement its Western outlook while adding another 
strongly pro-American country to the alliance. In fact, Kosovo 
is the most pro-American country in Europe according to a 
recent Gallup survey. Of course, membership in NATO requires 
Kosovo to develop a military, and I am glad that we may see the 
early steps in that direction through the planning of a 
professional defensive army later this year. As a sovereign and 
independent republic, Kosovo has every right to build its armed 
forces, and it speaks highly of the new country that it plans 
to work closely with the United States and our European allies 
on the timing and organization of its defense forces. We must 
not buy into the irrational fears of some who express unfounded 
misgivings about a potential Kosovo military considering the 
assurances that it will be small and defense-oriented. 
Regardless, I look forward to the day when Kosovo's troops will 
stand side by side with American soldiers in the fight against 
international terrorism and other global ills.
    And finally, I think it is long past time for the five EU 
holdouts to recognize Kosovo. Twenty-two EU nations do, five do 
not. Not only has the International Court of Justice accepted 
Kosovo's Declaration of Independence as valid and legal, but 
with the Kosovo-Serbia normalization agreement there is no 
reason left for the continued intransigence. I hope the State 
Department along with European foreign ministries will now 
renew their efforts to bring about more recognitions.
    There is certainly additional challenges which the new 
country must still address. Unemployment is high. Corruption 
continues to place a drag on the economy. And interethnic 
relations must continually be strengthened. At the same time, 
however, agreements between Serbia and Kosovo must be fully 
implemented, and as laid out in the latest accord, parallel 
structures in the north must either be eliminated completely or 
made a transparent part of the unified Kosovar state so that 
minorities can be treated fairly wherever they are. Again, I 
would like to congratulate Kosovo and Serbia for signing the 
agreement on normalization, and offer my help to both countries 
in their efforts to join a Europe whole and free.
    And I thank you, Mr. Chairman, for the opportunity to offer 
my thoughts on the matter, and the time, and again look forward 
to working with you and the ranking member.
    Mr. Rohrabacher. Mr. Holding?
    Mr. Holding. Thank you, Mr. Chairman, for calling this 
hearing as the subcommittee examines the recent agreement 
between Kosovo and Serbia and what this means in terms of 
providing a starting point for achieving regional stability as 
both countries look to the international community.
    While I served as the United States Attorney for eastern 
North Carolina, I was privileged to travel to Kosovo and work 
with their government and Department of Justice to train law 
enforcement authorities, which focused on establishing their 
rule of law by ensuring the proper enforcement of criminal 
laws. And indeed, while U.S. Attorney, I sent about a dozen 
different missions to Kosovo from my office comprised of 
Federal prosecutors and various members of law enforcement to 
engage, and then in return we welcomed several missions from 
Kosovo to North Carolina to cross-train.
    So I am encouraged by recent developments made within the 
last week that recognize that challenges still exist, and look 
forward to hearing from our witnesses as how we can best 
support their efforts. So Mr. Chairman, thank you, and I yield 
back.
    Mr. Rohrabacher. And Mr. Stockman?
    Mr. Stockman. I want to thank the chairman for taking on 
issues which aren't always popular but are nonetheless very 
important. I was fortunate to visit Belgrade a few years ago, 
and I think it is important that we listen to all sides and to 
work out a solution that we can all benefit from. And I 
appreciate these hearings being open and honest and balanced, 
and I look forward to working out a solution that we can all 
join on. Thank you. I yield back the balance of my time.
    Mr. Rohrabacher. Thank you very much. Our first panel, 
which is composed of our representative of the administration, 
and then we follow by a second panel of experts. So our first 
panel is Jonathan Moore, Acting Deputy Assistant Secretary for 
European and Eurasian Affairs at the U.S. Department of State 
and has led policies responsible, these for Albania, Bosnia, 
Herzegovina, Croatia, Kosovo, Macedonia, Montenegro, Serbia. 
That is quite a portfolio.
    He is a career member of the Senior Foreign Service and 
with extensive experience in this region. He was assigned to 
the U.S. Embassy in Belgrade in 1991, and was Desk Officer for 
the former Yugoslavia in the State Department from 1993 to 
1995. He was Deputy Director of the State Department's Office 
of Russian Affairs from 2000 until 2002, and prior to his 
current assignment was Deputy Chief of Mission in Bosnia and 
Herzegovina from 2009 to 2012.
    And Mr. Moore, if you would perhaps could keep your 
statement down to about 5 minutes and the rest will put into 
the record, you may proceed.

  STATEMENT OF MR. JONATHAN MOORE, DIRECTOR, OFFICE OF SOUTH 
   CENTRAL EUROPEAN AFFAIRS, BUREAU OF EUROPEAN AND EURASIAN 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Moore. Chairman Rohrabacher, members of the 
subcommittee, good afternoon. I am honored to appear before you 
to discuss Kosovo and Serbia. On behalf of the State 
Department, please allow me to thank you and the subcommittee 
for your timely and deep interest in these countries, as well 
as in the broader Balkan region, where the United States 
continues to make investments of personnel and resources to 
ensure that the conflicts of the 1990s are not repeated.
    The Governments of Kosovo and Serbia concluded a 
significant agreement last Friday through the European Union 
facilitated Dialogue. This development has come after years of 
sustained engagement by the United States and our European 
partners. In order to speak of a Europe that is whole, free, 
democratic, and at peace, the Balkans must be in the European 
and Euro-Atlantic family. This has been a goal of 
administrations, both Democratic and Republican, for over 20 
years. As we have seen elsewhere in Europe, integration has 
been and remains the best means of fostering long-term 
stability, investment, and prosperity. The unprecedented joint 
visit of Secretary of State Clinton and European Union High 
Representative Ashton to Pristina, Belgrade, and Sarajevo last 
year is proof that we and the EU stand united in this goal.
    The parties' April 19th agreement on the normalization of 
relations includes a durable solution for northern Kosovo 
within Kosovo's legal and institutional framework with 
substantial local self-governance under Kosovo law. The 
agreement covers the creation of an ``Association'' or 
``Community'' of Serb majority municipalities in Kosovo that 
may exercise municipal competencies collectively, and will also 
have a role in representing the Serb community to the central 
authorities.
    On April 22nd, High Representative Ashton and EU 
Enlargement Commissioner Fuele recommended to EU member states 
that negotiations be opened with Serbia on EU accession, and 
with Kosovo on an EU Stabilization and Association Agreement, 
as well as allowing Kosovo to participate in EU programs. We 
welcome these recommendations which the European Council will 
consider at its June session. While the Dialogue is an EU-led 
process, it has had our full and active support. Our Deputy 
Assistant Secretary, Ambassador Philip Reeker, has actively 
engaged the parties and the EU. We have been in constant 
contact with both countries' leaders, including meetings of 
Vice President Biden with President Nikolic and Prime Minister 
Thaci in Rome in March. We are encouraging Kosovo and Serbia to 
implement expeditiously and fully all Dialogue agreements.
    We know, Mr. Chairman, this will not be easy. Hardliners 
and criminal elements in northern Kosovo will resist. They have 
long benefitted from the conditions that disadvantage and 
intimidate the population in northern Kosovo, keeping the 
situation there on edge and perpetuating weak rule of law. 
Dismantling the parallel political and security structures in 
northern Kosovo will be a major challenge. Municipal elections 
in the north this year with OSCE facilitation should usher in a 
new era of accountable, decentralized, and effective 
governance. Serbia must demonstrate the willingness and ability 
to use its influence to isolate those who block implementation.
    For its part, Kosovo must demonstrate the commitment and 
ability to protect and preserve the lives and livelihoods of 
the Kosovo-Serb population in the north and throughout the 
country, and to guarantee the rights afforded to them by Kosovo 
and international law, including the far-reaching self-
governance to which they are entitled under Kosovo's 
Constitution. Of course, the full cooperation of both Kosovo 
and Serbia with the international community and its missions, 
NATO's Kosovo Force (KFOR) and the EU Rule of Law Mission 
(EULEX) remains essential for success. The United States will 
support both parties and its partners on the ground in their 
implementation efforts.
    Despite the difficulties, this agreement is the best way 
forward. Reconciliation is the goal of Serbia and Kosovo, not 
partition or land swaps. This administration, like the Bush 
administration that recognized Kosovo's independence in 2008, 
has made clear its commitment to a democratic, sovereign and 
multi-ethnic Kosovo within its existing borders. Assistant 
Secretary of State Gordon stated our policy before this 
subcommittee in November 2011, ``There is no way for borders in 
this region to be redrawn along ethnically clean lines. . . . 
Questioning the ability of people of different ethnicities to 
live together is harmful to regional reconciliation and 
contrary to the international community's decade-long effort to 
move the region beyond the brutal conflicts of the 1990s.'' The 
April 19th agreement should be the focus. It is a key signal 
that both governments are capable of making compromise and are 
committed to putting the past behind them, moving forward with 
their European aspirations, and building a peaceful and 
prosperous future.
    Mr. Chairman, we remain committed to helping them realize 
these goals, and hope for your support and that of the 
subcommittee. Thank you very much.
    [The prepared statement of Mr. Moore follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Well, thank you very much. Now Mr. 
Secretary, I will ask you a few questions. We will pass this on 
to other members as well. First is, the agreement sets out in 
detail the establishment of a Serb-led police force in the 
northern areas, in that northern area of Kosovo. The 
commentators claim also that there was some sort of sidebar 
agreement not to deploy Kosovo's Security Forces or special 
police units into that northern Serbian area except in an 
emergency. Is that true?
    Mr. Moore. Thank you for your question, Mr. Chairman. The 
Kosovo Security Forces work very closely with NATO and KFOR. 
The authorities in Kosovo fully respect the role of KFOR to 
provide safe and secure conditions in northern Kosovo. As you 
have seen from the informal text of the agreement that has 
circulated, there is no role for KSF in implementing the 
agreement, so we are quite confident that KFOR has the lead, 
not the KSF, in the north and in the context of implementation.
    Mr. Rohrabacher. So the answer is yes.
    Mr. Moore. The answer is yes.
    Mr. Rohrabacher. Thank you. Both Serbia and Kosovo want to 
join the EU, and Kosovo has expressed interest in joining NATO. 
Do we have a position on whether or not they should be part of 
NATO, both of these countries?
    Mr. Moore. Mr. Chairman, as you know NATO operates by 
consensus. Serbia has not sought membership in NATO. Kosovo is 
not yet in a position to have applied for membership in NATO. 
The Kosovo Security Force needs to evolve. It will do so with 
the help of NATO. This is something being discussed in Brussels 
now with our NATO partners and allies. We certainly see the 
potential for their future in Euro-Atlantic institutions, that 
means NATO and the EU. If Serbia chooses to apply that would be 
taken very seriously. We have excellent bilateral military-to-
military relations with Serbia as well as with Kosovo. That 
will depend upon the desires of those countries, and of course 
the decisions of all NATO member states including ours.
    Mr. Rohrabacher. All right. So the bottom line is that we 
have no position on it right now, but maybe in the future.
    Mr. Moore. We support them having that aspiration and we 
will have to see.
    Mr. Rohrabacher. Right. Okay, though this agreement gives 
central government in Kosovo authority, on paper at least, over 
the entire claimed territory or what you said, within existing 
borders, I think, was the phraseology you used, does the local 
power that has been granted to the Serbians in the northern 
part of the country, doesn't that mean, and especially what you 
have just acknowledged was that there wouldn't be Kosovar 
forces going up there, doesn't that mean autonomy? And wouldn't 
an autonomy up there in the northern part of Kosovo harden the 
feelings on both sides? And if Kosovo can't control the north, 
which is composed of 90 percent of the people there don't want 
to be part of Kosovo, why do you think it wants to hang on to 
it, and why are we encouraging them to keep authority but not 
actually having authority, but the facade of authority, over an 
area in which has autonomy from their rule?
    Mr. Moore. Well, Mr. Chairman, we do not use the term 
``autonomy'' in the context of the agreement and what is being 
granted to those municipalities. By the way, it is important to 
note that the opportunities, the rights of those 
municipalities, which they can exercise collectively, extend to 
other municipalities in the south of Kosovo that have a 
majority Serb population.
    In terms of the eventual development of the Kosovo Security 
Force and its role in the north, that is a subject for a later 
point. In terms of immediate implementation of the Dialogue, 
all of these matters need to be worked out.
    But Mr. Chairman, I think part of the fundamental 
perspective we have--and granted, as diplomats we are looking 
for the middle path, the compromises, to succeed--is that we 
honestly don't believe that ethnic rights and freedoms are 
protected by anything other than the rule of law. You make the 
point, Mr. Chairman, the population may be 90 percent Serb but 
it is not 100 percent Serb. We don't believe that ethnic rights 
and freedoms, human rights, are protected by making countries 
ethnically pure. We think the key thing is the rule of law, so 
that is what we hope to see in the north----
    Mr. Rohrabacher. I am sure that our great thinkers at the 
State Department have charted out philosophically how people 
must be taught to respect the rule of law and that is the 
nirvana. That is the solution that is going to happen. Them 
people have been fighting each other for centuries, and we are 
just going to have a rule of law concept that is going to let 
some of them then say, well, we will just submit to these 
people who we have been fighting for centuries, rather than 
trying to find a way in which people in Kosovo are happy to be 
in Kosovo, and people in Serbia are happy to be Serbians, thus 
they don't have to believe in anything except what they really 
desire, which is a national identity, of being ruled with a 
national identity.
    Let me ask you this. Why is it that when we, we always 
focus on the Serb communities in Kosovo when we are talking 
about autonomy and things such as that but we never mention the 
Kosovar communities in Serbia. There are several areas right 
near the border in this valley there that are just as heavy a 
concentration of Kosovars as you have a concentration of Serbs 
north of the river. So how come we never talk about Kosovars 
and their community across the river and their desire for 
autonomy?
    Mr. Moore. Mr. Chairman, thank you for that point as well. 
Talking about the ethnic Albanian population in that part of 
southern Serbia, Presheva Bujanovac, we have every confidence 
that the Government of Serbia will look after the human rights 
of its citizens there regardless of their ethnicity, and we 
have the same confidence in the ability of the Government of 
Kosovo to look after all of its citizens in the north or the 
south regardless of their ethnicity. So that is why we are 
focused on the rule of law aspect with that.
    Mr. Rohrabacher. Thank you very much. And Mr. Keating, and 
then we will let Mr. Engel again. Well, maybe we will go with 
the judge and let Mr. Engel have what time he would like to 
consume.
    Mr. Keating. Thank you, Mr. Chairman. The April 19th 
agreement includes the establishment of an implementation 
committee by the two sides with the facilitation of the EU in 
place as well. How strong do you feel the EU's role has to be 
in order to actually ensure that implementation, and are there 
clear penalties laid out by the EU or the U.S. if Serbia or 
Kosovo do not implement the accord? For instance, could the EU 
freeze Serbia's accession talks or Kosovo's Stabilization and 
Association Agreement? What are your feelings on that, Mr. 
Moore?
    Mr. Moore. Congressman Keating, thank you for the question. 
Yes, of course, as an EU-facilitated process the continued role 
of the EU is critical to the success of the process. The next 
implementation meetings are taking place in Brussels even 
today, tomorrow, the rest of the week, to see about the best 
way to move things forward. Both sides fully recognize that it 
was not just by initialing this agreement last Friday that they 
move forward on their EU paths. They have to show commitment 
and they have to work to implement the agreement. So while it 
is up to the EU to decide what penalties or steps they might 
take, it is certainly necessary for both Serbia and for Kosovo 
to act to implement this agreement in order to benefit from 
positive decisions by the European Union.
    Mr. Keating. Right. I just wanted to quickly say, do you 
think any kind of penalties are in order as part of that 
enforcement process? Can you envision that?
    Mr. Moore. I can tell you, Congressman Keating, from what I 
know and what we have heard, the EU is definitely going to hold 
both sides' feet to the fire. Exactly what the menu of options 
is for them, it may be among those that you suggested, that 
will have to be determined by the willingness of one side or 
both sides to implement. The important thing is that both 
Kosovo and Serbia have passed toward the European Union and 
that neither can hold up the other.
    Mr. Keating. And you think that one of those possibiities 
could be not allowing accession?
    Mr. Moore. Certainly that again becomes a matter for the 
member states. Accession to the EU is years away even for 
Serbia. We just saw for Croatia the process took well over 10 
years. So there are many steps along the process where the EU 
can stall or suspend or make other demands if they have 
concerns, and we expect that they would do that if 
implementation is not complete.
    Mr. Keating. All right, thank you. As you mentioned, Kosovo 
lags behind the other countries in the Balkans in its efforts 
to join the EU, but while Serbia is moving ahead with accession 
talks, Kosovo is still working to achieve visa liberalization 
and a Stabilization and Association Agreement with the EU.
    Mr. Moore. Yes.
    Mr. Keating. And every small step in Kosovo's progress with 
Brussels could, indeed, as mentioned before by the ranking 
member, could face a veto by one of the five EU non-recognizers 
making their path even harder. Can you discuss Kosovo's pathway 
toward the EU? Are they making steady progress at this point 
even if it is a ways off, or are there more roadblocks, 
literally and figuratively, ahead? Is there a way that the U.S. 
assistance to Kosovo can be used to help Pristina with some of 
the technical requirements involving moving forward in the EU? 
What could be the U.S.'s role in that regard?
    Mr. Moore. Thank you for the question, Congressman Keating. 
In terms of the support and assistance of the United States on 
specific issues, for example, visa liberalization, that comes 
down to many aspects of the rule of law and the functioning of 
Kosovo's institutions and many technical requirements. The 
assistance we have in the rule of law sector along the lines of 
where Congressman Holding did his work years ago was very 
important to that effort.
    On a grander scale, of course, this agreement opens many 
doors to the EU for Kosovo as well as for Serbia. On the 
specific issue of non-recognizers it is of course true, 
Congressman, that recognizers at one point or another can raise 
objections or concerns to the process moving forward. That is 
the nature of how the EU works. We would certainly like to see 
a situation where those five non-recognizers are able to 
recognize Kosovo. We have an ongoing diplomatic effort to 
encourage greater recognition of Kosovo not just in Europe but 
all around the world. Those countries like other EU members 
will have to choose their own level, what decisions they want 
to make and how supportive they are of Kosovo's progress toward 
the EU.
    Mr. Keating. Yes, you mentioned briefly that the U.S. could 
be helpful in giving technical advice toward moving toward the 
rule of law. What other things could the U.S. be doing besides 
that?
    Mr. Moore. Well, there are many aspects of course of EU 
legislation. I forget how many tens of thousands of pages of 
laws, rules, have to be harmonized, have to be implemented as a 
country moves toward the EU. Rule of law is an obvious sector 
because legislation has to be harmonized and implemented 
throughout Kosovo. There are other areas in which we work to 
provide assistance for the growth of the economy, for example 
in the energy sector which are not as directly tied to their EU 
prospects, but are necessary for their long-term prosperity and 
economic success.
    Mr. Keating. Thank you. I yield back, Mr. Chairman.
    Mr. Rohrabacher. Thank you. Judge Poe?
    Mr. Poe. Thank you, Mr. Chairman. As I mentioned in my 
opening statement, Mr. Moore, human rights violations are a big 
concern. And part of the reason is when the people involved, 
the countries involved, believe that there are human rights 
violations in another country that causes tension in trying to 
work out some long-term relationship of trust.
    I want to ask you about the status of the special task 
force investigating an organ trafficking ring operation out of 
the so-called Yellow House in Kosovo. This operation supposedly 
took place from 1999 to 2000, maybe after that. When I went to 
Serbia and Kosovo this was talked about and brought up quite a 
bit. It is not talked about, I don't think, over here in the 
United States much, and I don't know about the United Nations. 
But it is talked about as a situation that is not resolved.
    And do the findings made by the Council of Europe Special 
Rapporteur Dick Marty, in his findings, deserve some kind of 
closer look? And has anybody been brought to, so to speak, 
justice for these accusations? Has it been resolved one way or 
another? I mean it has been awhile. Where are we on this, Mr. 
Moore?
    And let me just finish this. You said that we expect that 
the Kosovos will make sure that there are no human rights 
violations in their country and we expect the Serbs to do the 
same. This may be an example of where that isn't working out so 
well when we have these accusations of human rights violations. 
So help me out with this. Where are we on the Yellow House 
situation?
    Mr. Moore. Thank you, Your Honor. First, let me say that 
unfortunately as is documented in our annual human rights 
reports to Congress, there are human rights violations in 
countries all around the world, including very well established 
and----
    Mr. Poe. I am not talking about around the world. Let us 
talk about the area that we are talking about today, Mr. Moore.
    Mr. Moore. I am very pleased to do that, Your Honor. In 
specific reference to those accusations, we take them and all 
accusations of war crimes very seriously. Clint Williamson, the 
former Ambassador-at-Large of the United States for war crimes, 
is leading the Special Investigative Task Force. He is doing 
that under the auspices of the European Union EULEX Mission. 
That work continues. The hope is that----
    Mr. Poe. What does that mean that the work continues? What 
does that mean? What is being looked at? Are people being 
questioned? I mean how long is this investigation going to 
take? Is it going to be another investigation like the Warren 
Commission that just takes forever, or what? Is there going to 
be some resolution to it? So kind of cut to the chase, Mr. 
Moore. Where are we on this investigation?
    Mr. Moore. Well, thank you, Your Honor. You would be more 
familiar with the amount of time needed for prosecution than I 
am. The hope is that a prosecution will be possible in the next 
year. Ambassador Williamson and his team are still collecting 
evidence. They are doing that through EULEX. The latest 
information I have, Your Honor, is that they are not ready to 
go directly to prosecution. There is also a question about 
where the prosecution is going to take place. I will take that 
question, if you will allow me, Your Honor, and get you any 
more specific up-to-date information on that. Ambassador 
Williamson is working very actively and certainly the intention 
is to have a prosecution if there is sufficient evidence to 
warrant that within the next year.
    Mr. Poe. Okay. Thank you, I would appreciate some follow-up 
in writing. NATO, what is the current position of the Serbian 
Government and its desire or lack of desire to be in NATO? When 
I am over there I hear different things. What is it today 
regarding Serbia being a part of NATO?
    Mr. Moore. The latest information we have with regard to 
the current opinion of the standing government in Serbia, is 
that they have not in any way applied for NATO membership. The 
previous governments have not done that. We do have a very 
active military-to-military relationship at the highest ranks, 
but at this point I am unaware of any desire by this or 
previous Governments of Serbia to apply for NATO membership.
    Mr. Poe. Thank you. I will yield back.
    Mr. Rohrabacher. Thank you very much, Your Honor. And now I 
yield to Mr. Engel for what time you may choose to consume.
    Mr. Engel. Thank you. Thank you very much, Mr. Chairman. I 
just want to say that there have been trials by some people, 
Ramush Haradinaj and others, in The Hague, and Mr. Haradinaj 
was found innocent of all charges twice. So we in the United 
States are not used to a situation where if you are found 
innocent at a trial you can be recharged on the same issues. He 
was recharged and found innocent twice. I think it is important 
to state that.
    Let me ask you that Kosovo hopes not only to join the EU in 
the future but to join NATO as well. To do that it has to first 
establish a military and join the Partnership for Peace. Could 
you let the subcommittee know the U.S. position on when the 
independent, sovereign Republic of Kosovo will be able to 
create a military and join the Partnership for Peace? Will the 
United States support Kosovo's efforts to establish a military 
and join the Partnership for Peace?
    Mr. Moore. Thank you, Congressman Engel, for your question. 
Now let me say that as I mentioned before we are working very 
closely with our NATO allies on exactly these issues now. The 
Kosovo Security Force, of course, has essentially a civil 
emergency mission now. The evolution of that into a different 
sort of military is something which involves KFOR and NATO very 
closely. It is also a matter of consensus within NATO exactly 
the sort of relationship that NATO is able to support, the sort 
of forces that NATO is able to support. This is an ongoing 
topic. At the same time we are working with the Kosovo Security 
Force directly. We are working with the Ministry of the Kosovo 
Security Force on these sorts of questions. It is a likely step 
for that to evolve at some point in the near future, but this 
is a matter of discussion both with Pristina and within NATO.
    Mr. Engel. Well, I just think that the U.S. needs to let 
our European allies know, particularly the five EU countries 
out of the 27 that still do not currently recognize Kosovo, 
that they ought to do it. I know that has been our position and 
I know we have been somewhat vocal about it. But I think that 
in light of the April 19th accord, I think that should change 
the equation. Do you think that the April 19th accord will 
cause those five EU countries that do not currently recognize 
Kosovo to do so?
    Mr. Moore. We would certainly like to think that the April 
19th accord would provide greater impetus and justification for 
recognition by those five and countries outside Europe. That is 
part of our diplomatic efforts as you say, Congressman Engel. 
We will have to see what successes we have with that effort. 
But certainly they should have more reasons to engage, if not 
recognize, Kosovo.
    Mr. Engel. How about us? Will we make a renewed effort to 
do this?
    Mr. Moore. The pursuance of recognition of Kosovo is an 
active effort. We have a full-time action officer in my office 
at the State Department focused on this. Whether it is for 
Europe, Asia, Africa, or the rest of the world, we have a 
comprehensive effort to seek recognitions. I even traveled to 
Africa in an effort to secure more recognitions from African 
countries as part of a delegation with Kosovo. This is a very 
comprehensive effort and I can assure you that we continue to 
engage on that.
    Mr. Engel. I am for Kosovo joining the EU and I am for 
Serbia joining the EU. Should Serbia and Kosovo join the EU at 
the same time in order to prevent the potential of Serbia 
blocking Kosovo's membership? What are we doing to make sure 
that if Kosovo is moving at a slower pace with the EU accession 
that Serbia cannot or would not block it, and what can we do 
expecting Kosovo's aspirations to join the United Nations that 
is currently blocked by both Serbia and Russia?
    Mr. Moore. On the first question in terms of their path 
toward the EU, they are on different tracks. They of course had 
different starting points. Serbia is already a candidate member 
and Kosovo is just looking at securing a Stabilization and 
Association Agreement. Exactly what tempo, of course, they 
pursue toward EU membership will depend very much upon their 
performance in the process of introducing and implementing 
legislation, meeting other steps, meeting other criteria set by 
the EU. They are on separate tracks. As was pointed out in the 
agreement, of course, neither can hold back the other. That is 
a principle to which they should continue to be held. So 
regardless of which country reaches membership first, they 
would not be able to disadvantage the other. That has been an 
issue of evolving policy in the European Union, and we will 
have to see at what stage the European Union is when that 
question arises, if it is a question of one trying to block the 
other. We certainly would hope that is not the case.
    Mr. Engel. Well, is it ironclad that it cannot happen? It 
seems to me to be a bit unfair if there is even the remote 
possibility that it could happen. It would seem to me that we 
should make it clear, or that you should make it clear that 
that could not happen. That one country could not block the 
other.
    Mr. Moore. Congressman, that is an excellent question. I 
can only tell you that in the recent case of Croatia and 
Slovenia, Slovenia raised objections quite late in the process 
to Croatia moving forward. They were able to address that issue 
bilaterally. The EU has changed the circumstances under which a 
single member state can block the progress of a new member. I 
think that process will need to evolve, but I apologize, I am 
not in the position to speculate about exactly how thing will 
be. Even for Serbia we are talking about a process that will 
last, to judge by other averages, at least a decade.
    Mr. Engel. Okay. Let me ask you a final question. I have 
been deeply concerned that to date no individuals have been 
convicted for the brutal killing of three United States 
citizens, the Bytyqi brothers, Agron, Ylli and Mehmet. As you 
know, they were helping to save the lives of a Roma family from 
Kosovo where they were unlawfully detained by Serbian 
authorities and suffered an execution-style murder. It was a 
long time ago. We want to move on. But 11 years after the 
discovery of their bodies no one has been held accountable for 
their killing, and the chief suspects in the chain of command, 
including the camp commander, have never been charged.
    So what is the status of their case, and can you describe 
the State Department's efforts to press Serbia to bring the 
killers to justice? Is there anything more that Congress can do 
to help press Serbia to achieve justice for the Bytyqi family? 
I just met with the fourth Bytyqi brother who is in New York. 
Just a few weeks ago I sat down with him.
    Mr. Moore. Thank you, Congressman. This is a case which 
disturbs us greatly, the arrest and then murder of three 
American citizens. We also have met with Fatose Bytyqi, the 
surviving brother, who lives in the United States. We have 
engaged at this level and at the most senior bilateral levels 
including by Secretary Clinton when she was in Belgrade last 
fall. Our Deputy Secretary of State raised it directly with 
Prime Minister Dacic, and he is also Interior Minister of 
Serbia.
    We continue to call upon these authorities in Belgrade to 
investigate this case and to prosecute it. We are not aware of 
direct progress. There have been no convictions in this case. 
Serbia is certainly very well aware that it is extremely high 
on our bilateral agenda. We want to see justice in this case as 
in all cases of war crimes. This happens to involve, as you 
say, three American citizens so it figures prominently in our 
bilateral agenda from that perspective as well. But 
unfortunately, to this point we have not received any 
information from the government or authorities in Serbia that 
that case is moving forward other than some investigations.
    Mr. Engel. Well, let me conclude by saying that I think 
that this should be continued to be pressed and is a real 
priority, and I know the chairman would agree with me because 
we have discussed these issues a lot. These are three American 
citizens and we really demand answers for American citizens.
    Mr. Moore. Yes.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Mr. Rohrabacher. I guess when you have a case like that 
pending that it undermines this belief that everyone can just 
trust the rule of law, even though you set up a situation where 
you have people who hate each other are within the same 
governmental structure.
    Mr. Holding?
    Mr. Holding. Thank you, Mr. Chairman. Speaking of the rule 
of law, I would like to take my time and allow you to give us, 
or give me, somewhat of an update on the state of the rule of 
law in Kosovo. I believe I was there in 2010. It is plagued by 
high unemployment and high crime and public corruption. So I 
would be interested in having your thoughts as to where they 
stand now. Have they had some improvement over the course of 
the last 3 or 4 years?
    Mr. Moore. Congressman Holding, thank you for the question. 
We do believe there has been improvement. Part of that has come 
about because of our assistance programs and our cooperation. 
As you mentioned, we offered training exchanges. We brought 
people from law enforcement organizations and authorities here. 
We worked through different programs of the U.S. Department of 
Justice with judges, with prosecutors. We worked directly 
through ICITAP with the police in Kosovo as well.
    It is a comprehensive effort. It takes a lot of time. 
Corruption is rampant throughout the region, throughout the 
former Yugoslavia. These are all countries, even the most 
established like Serbia, that suffer under a history of years 
of Communist and undemocratic leadership and institutions. So 
it is a tough road. I think there has been progress. We believe 
there has been improvement. But indeed the Kosovo police is 
better able, for example, to protect Serbian historical and 
cultural sites than they did in the past. Of nine key sites, 
they are able to provide security at seven. There are excesses. 
The situation is not perfect.
    Taking Judge Poe's advice and comments into mind, I don't 
wish to comment on comparisons to other countries, but suffice 
it to say we are not done with the work. We are working closely 
with Ministers of Interior and other such leaders to fix 
things, but we do see some improvement over the past few years. 
I apologize. I don't have a direct means to quantify that now. 
If this is of interest to you I would be happy to follow up 
with more specific information on that.
    Mr. Holding. That would be great if you could get back on 
that. The level of cooperation that we have now, has it been 
increasing over the number of years as far as Department of 
Justice cooperation, U.S. lawyer cooperation? Is that still on 
the rise or has that started to diminish?
    Mr. Moore. Congressman, you are correct, it has started to 
diminish. Based on needs and priorities around the world for 
U.S. assistance dollars, the number has gone down a bit. Both 
Kosovo and Bosnia and Herzegovina are still focal points for 
U.S. assistance in the region. Those numbers have gone down for 
all countries in the region, but we still have a robust effort 
coordinating with our colleagues at the U.S. Department of 
Justice on rule of law cooperation in Kosovo.
    Mr. Holding. Well, Kosovo always has struck me as a great 
opportunity for the United States to partner with because it is 
a nation that likes the United States and it has a 
predominantly Muslim population of some 90 percent, and it is a 
Muslim nation that likes the United States. And I think there 
is great opportunity there being the youngest nation on our 
planet. And hopefully it will be welcomed into the fold by all 
nations as it comes to fruition in the course of years. So 
thank you, and I yield back.
    Mr. Moore. Thank you, Congressman.
    Mr. Rohrabacher. Thank you very much. I have one last 
clarification for you.
    Mr. Moore. Please.
    Mr. Rohrabacher. Was it your testimony earlier that part of 
this understanding, if not part of the agreement, was that 
Kosovo would not deploy security forces in those northern 
provinces that are Serbian-dominated, and that how ever that 
was going to be compensated for, in some way balanced out 
because the fact that KFOR and U.S. forces would then be 
deployable. Is that correct?
    Mr. Moore. In the context of what you correctly pointed 
out, Chairman Rohrabacher, as the first agreement, there is no 
role for KSF, and freedom of movement in a safe and secure 
environment will be handled by EULEX and KFOR without needing 
to turn to KSF. So in this immediate situation--as this is 
again just the first step--there is no role for KSF or a 
successor military. However, in the future that could change. 
And if I have stated in a way that there is no role at any 
point in the future that would not be correct. In the context 
of this agreement and the effort to implement this agreement, 
there is no role for KSF.
    Mr. Rohrabacher. Okay. So the agreement then actually 
depends upon KFOR and the United States to continue 
indefinitely, because there is no mention as to any length of 
time that this status quo will exist either. That is quite 
disturbing.
    Mr. Moore. May I clarify further, Mr. Chairman?
    Mr. Rohrabacher. Yes, you may.
    Mr. Moore. It is certainly not our intention that KFOR 
should remain there indefinitely. There are still 5,000 troops 
in KFOR of which nearly 800 belong to the United States. 
Recognizing needs and priorities around the world, we want to 
see that change. The hope is that with this effort to implement 
this agreement, over time the security situation in Kosovo will 
evolve, and we hope, by the way, on a shorter timeline rather 
than a longer timeline so that KFOR's role does not need to be 
what it is today and that both the United States and other 
troop contributors can appropriately reduce their presence on 
the ground in Kosovo.
    Mr. Rohrabacher. Thank you very much. I would suggest that 
again that things will evolve a lot quicker if people would 
draw maps that are consistent with the will of the local 
population rather than expecting the local population to ignore 
the attitudes and the values that they have developed and 
reactions to each other that have been developing for 
centuries. Thank you very much, and we appreciate your 
testimony.
    Mr. Moore. Thank you, Mr. Chairman.
    Mr. Rohrabacher. And next we have another panel and they 
may proceed to sit down. And we will have five panelists, and 
each one will be expected to testify around 5 minutes, but have 
a more in-depth testimony will be made part of the record as 
part of their testimony.
    I want to thank this panel of witnesses for joining us 
today. We will start with Daniel Serwer who is a senior 
research professor of Conflict Management as well as a senior 
fellow at the Center for Transatlantic Relations at Johns 
Hopkins School of Advanced International Studies. He is also a 
scholar at the Middle East Institute, and while working for the 
U.S. Institute of Peace he led missions to the Balkans. He was 
a minister-counselor at the Department of State, serving from 
1994 to '96 as a special U.S. envoy and coordinator for the 
Bosnian Federation, mediating between the Croats and the 
Muslims, and negotiating the first agreement that they reached 
at the Dayton peace talks.
    We then have with us Shirley DioGuardi, and she is a Balkan 
affairs adviser to the Albanian American Civic League, a 
position she has held since 1995, together with her husband who 
is a former Member of Congress, I might add, a very well 
respected Member of Congress. She has worked to bring lasting 
peace and stability to the Balkans. Shirley is a former 
publisher of the Lawrence Hill Books specializing in domestic 
and international politics. And then in 1995, she published 
``Yugoslavia's Ethnic Nightmare,'' the first book on the causes 
and consequences of the Balkan conflict. She has worked closely 
with the Albanian communities and holds a Bachelors degree in 
Sociology from Oberlin College and a Masters in Divinity from 
the Union Theological Seminary in New York.
    And after that we have Mr. Kesic, a senior partner with TSM 
Global Consultants. Over the last two decades, Mr. Kesic has 
served as consultant on Balkan affairs for various U.S. 
agencies, international corporations and organizations. Mr. 
Kesic is a member of the board of directors of the Institute on 
Religion and Public Policy. He is a co-founder and represents 
the Serbian American community in the National Democratic 
Ethnic Coordinating Committee, and is a consultant and advisor 
to the Serbian American Institute.
    We then have Mr. Gjoni who, since 2005, has been an advisor 
and a component leader for USAID projects in Kosovo. Before 
that he worked for the United Nations in Kosovo. He was also an 
expert working on drafting the Kosovo Constitution in 2008. He 
is currently a Ph.D. candidate at the School of Politics and 
International Relations of the University College Dublin, and a 
Fulbright Scholar. He holds a Masters of Law degree from 
Columbia Law School, and a law degree from Faculty of Law at 
the University of Tirana in Albania.
    And then we have Bob Churcher, a freelance consultant 
specializing in political analysis and post conflict issues 
with considerable experience in the Balkans. Following a 
successful career in the British Army, he went to work for the 
British Foreign Office and the European community as an 
observer in the Bosnian war, and stayed in the Balkans, most 
often in Albania and Kosovo, with various international 
organizations. This included serving as director for the 
International Crisis Group on Kosovo.
    Now with that we may start with Mr. Serwer, and as I say, 
if you could try to keep it to 5 minutes then we will have time 
for a dialogue or questions and answers. But anything you would 
like to put into the record will be made part of the record, at 
the time, along with your testimony. So thank you very much. 
You may proceed.

    STATEMENT OF DANIEL SERWER, PH.D., PROFESSOR, SCHOOL OF 
    ADVANCED INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY

    Mr. Serwer. Thank you, Mr. Chairman, and thank you for this 
opportunity to testify on the pathway to peace for Kosovo and 
Serbia, which has been a long and difficult one. With your 
permission, I will summarize and submit my full testimony for 
the record.
    I would like to make five points. First, this is a good 
agreement. If fully implemented, it will go a long way to 
establishing democratically validated institutions as well as 
clear legal and police authority on the whole territory of 
Kosovo while allowing ample self-governance for Serbs in 
northern Kosovo on many other issues, in fact, ample self-
governance for Serbs throughout Kosovo.
    Second, implementation will be a challenge, one that 
requires Pristina to make integration attractive, and Belgrade 
to end the financing that makes resistance in northern Kosovo 
possible. Belgrade and Pristina will need to cooperate to end 
the smuggling of tax-free goods that has enriched organized 
crime and spoilers, both Serb and Albanian.
    Third, the agreement should end any discussion of exchange 
of territory between Kosovo and Serbia which, in my view, is a 
bad idea that risks destabilizing Bosnia, Macedonia, and even 
Serbia proper. We should work to make northern Kosovo a model 
of win-win reintegration for the rest of the Balkans.
    Fourth, Belgrade and Pristina have taken an important step 
toward normalizing relations, but they will need to do more, 
including eventual recognition and exchange of Ambassadors. If 
that does not happen neither will be able to get into the EU 
and both may try to arm themselves for a possible new 
confrontation. In accordance with this agreement, I would note, 
each will apply for EU membership as a separate, independent 
and sovereign state.
    Fifth, we owe props to the EU, and in particular Catherine 
Ashton not only for the mediation work she did but also for the 
vital incentives the EU provided. The U.S. Government shares 
supporting actor credit with leading Lady Ashton, which is as 
it should be.
    Mr. Chairman, I am relieved that an agreement has been 
reached, but still concerned about the future. The Belgrade-
Pristina Dialogue is a classic case of elite pact-making 
without a broader peacebuilding process. The underlying drivers 
of conflict have not been addressed. Many Serbs and Kosovo 
Albanians still think badly of each other and rank themselves 
as victims. I agree with you about that.
    There has been little mutual acknowledgement of harm. Few 
Albanians and Serbs have renewed personal ties and it is 
becoming increasingly difficult to do so as many younger people 
lack a common language other than English. It is almost 14 
years since the end of the NATO-Yugoslavia war. To be self-
sustaining this peace process is going to need to go deeper and 
involve many more citizens on both sides.
    The road is long, Mr. Chairman, but we are near its end and 
we need to keep going in the right direction. Thank you.
    [The prepared statement of Mr. Serwer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Well, thank you very much for your very 
optimistic testimony.
    Shirley, are you as optimistic as that gentleman?

   STATEMENT OF MS. SHIRLEY CLOYES DIOGUARDI, BALKAN AFFAIRS 
            ADVISER, ALBANIAN AMERICAN CIVIC LEAGUE

    Ms. Cloyes DioGuardi. I regret to say I am not. Mr. 
Chairman, first of all, thank you for giving me the opportunity 
to testify. I will be submitting my testimony for the record 
and summarizing it here. I would also like to take this 
opportunity to append to my testimony a recent article in the 
Eurasia Review by Faton Bislimi, entitled, ``The Politics of 
Compromise is Compromising Kosovo's Future.''
    Mr. Rohrabacher. With no objections that will be attached 
to your testimony.
    Ms. Cloyes DioGuardi. Thank you. I want to note that it is 
primarily in this hearing room among all the governmental 
bodies in the West that the hard questions about the Balkan 
conflict have been asked over the past two decades. Under 
former chairmen Gilman, Hyde, Lantos, the serious effort was 
made to reveal and explore the realities on the ground in South 
Central Europe during Serbian dictator Slobadan Milosevic's 
brutal 10-year occupation of Kosova and genocidal march across 
the Balkans that ultimately claimed 200,000 lives and left 4 
million displaced. It was here that the vote was cast to 
support NATO airstrikes against Serbia which finally brought 
the Kosova war to an end in 1999, and ended the Balkan wars of 
the 1990s.
    Mr. Chairman, in my opinion, it cannot be more timely to 
have this particular hearing now in your subcommittee raising 
questions about the resolution of the Balkan conflict just days 
after Catherine Ashton, the European Union's High 
Representative, has proclaimed a successful outcome to 10 
rounds of talks between Belgrade and Pristina. If the outcome 
were genuinely successful this hearing would not be necessary.
    But unfortunately, in my opinion, the agreement between 
Serbian Prime Minister Dacic and Prime Minister Thaci is a 
quick fix. It does not amount to a comprehensive and effective 
agreement that will bring lasting peace and stability to the 
region. In my opinion, this will only happen when Serbia 
recognizes Kosova's sovereignty and its admission to 
international institutions, grants equal civil and human rights 
to the Albanian majority in the Presheva Valley-on a par, I 
might add, with the rights that are currently enjoyed by Serbs 
in Kosova-relinquishes its parallel structures in northern 
Kosova, and focuses on the economic and political development 
of Serbia. Once that happens, Kosova's Government will need to 
focus on the establishment of a genuine democracy and rule of 
law, something it has failed to do because of its lack of 
sovereignty and the corruption of many of its government 
officials.
    The 15-point agreement on April 19 does not, in my opinion, 
as Catherine Ashton has declared, amount to ``a step closer to 
Europe for both Serbia and Kosovo.'' On the contrary, it will 
allow Serbia to interfere in the internal affairs of Kosova. 
With this agreement, Serbia will be allowed to enter into the 
membership negotiations with the EU through a false 
demonstration of neighborly relations with Kosova and 
ultimately to achieve what has always been its primary goal, 
the denial of Kosova's sovereignty and the acquisition of 
northern Kosova.
    Now how have we arrived at this point? It is the result, in 
my opinion, of three interconnected patterns in the postwar 
period that still continue 13 years after the war. One, 
delaying the resolution of Kosova's final status, its 
declaration of independence notwithstanding, due to a misguided 
Western foreign policy approach that has appeasing Serbia as 
its centerpiece. Two, successive U.S. administrations taking a 
backseat to Europe when it comes to policy in the Balkans. And 
three, Belgrade's efforts to destabilize Kosova with the goal 
of making the de facto partition of northern Kosova a legal, de 
jure reality.
    We had a different chance at war's end. The Clinton 
administration and the EU could have recognized Kosova's 
inevitable independence, informed Belgrade that it had 
forfeited its legitimacy to govern Kosova, and set Serbia on a 
path to democratization. But as we know this isn't what 
happened. Kosova became a protectorate of the U.N., and even 
today because of a large number of member states in the U.N. 
General Assembly have not recognized Kosova's sovereignty, and 
especially because five member states in the EU--Spain, Cyprus, 
Greece, Romania, and Slovakia--still refuse to do so, Kosova's 
political, economic and social progress, like Bosnia, has been 
stymied.
    For the past 13 years, almost 14, we have witnessed a 
foreign policy in the U.S. State Department that instead of 
being prevention-oriented and making human rights the 
centerpiece, that it instead has constructed policy frameworks 
to delay the resolution of Kosova's final status and admission 
to the EU, NATO, U.N. and other international institutions. I 
don't believe that it serves the United States to continue to 
distance itself from the resolution of the Balkan conflict by 
deeming it Europe's problem. Contrary to what our State 
Department has said today, whenever the United States has taken 
a backseat to Europe, and I still believe it has, the situation 
in the region has deteriorated because the EU's diverse, 27 
member states have not been able to coalesce around a common 
foreign policy apart from America's political and military 
leadership. That has been true for over a decade.
    The Obama administration has been publicly holding the line 
that the de facto partition of northern Kosova should not 
become legal, but they actually haven't taken any action to 
back up the position. For more than two decades, Belgrade has 
been able to move into that vacuum created by the lack of unity 
and lack of resolve among the EU member nations, between the EU 
and the U.S., and all the more so because the guiding principle 
of the EU and our Government has been appeasement. Belgrade's 
goal has always been to achieve its expansionist aims in Kosova 
diplomatically by legalizing the partition of northern Kosova, 
just as it achieved its expansionist aims in Bosnia by force 
when at the end of the Bosnian war in 1995 it was awarded with 
the artificially created Republika Srpska.
    Ever since the war ended in June '99, there has been an 
effort to destabilize the north. Now, and I will conclude, in a 
final push to resolve the conflict between Belgrade and 
Pristina in order to achieve the principle of exiting the 
region, the EU, with the support of the U.S. Government, has 
proclaimed an agreement that unfortunately papers over the 
roots of the conflict and the realities on the ground. The 
Balkans are again at risk because the current agreement does 
not grapple with the roots of the Balkan conflict and doesn't 
carve out a real solution.
    I think the time has come to ask all parties, the U.S. 
Government, the EU, Serbia, what do they really want? Will 
Belgrade struggle to retain Kosova at all costs, and will 
Serbia become part of Europe? The current accord enables 
Belgrade to enter into membership talks with the EU but without 
dismantling the structures of northern Kosova, without 
recognizing Kosova's sovereignty, without acknowledging 
Kosova's right to enter bodies. Will the U.S. and the EU decide 
what they really want--a whole, undivided, peaceful, 
democratic, and prosperous EU, or a periphery of failed, aid-
dependent societies that saddle it with economic and law 
enforcement responsibilities?
    To prevent a costly and potentially deadly conflict going 
forward, the West will have to rethink its diplomatic strategy. 
We need a new paradigm for how we handle foreign policy in the 
Balkans and elsewhere, again one that emphasizes conflict 
prevention and human rights not stability at all costs. Thank 
you.
    [The prepared statement of Ms. Cloyes DioGuardi follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Let me add one phrase and then we will go 
onto the questions afterwards from your presentation. And does 
Kosovo, how long will they insist on hanging on to an area 
where the vast majority, 90 percent of the people, don't want 
to be part of Kosovo in the same way they didn't want to be 
part of Serbia?
    Mr. Kesic, you may proceed with your testimony.

   STATEMENT OF MR. OBRAD KESIC, SENIOR PARTNER, TSM GLOBAL 
                        CONSULTANTS, LLC

    Mr. Kesic. Thank you, Mr. Chairman. I ask that my complete 
statement be entered into the record.
    Mr. Rohrabacher. It certainly will be, thank you.
    Mr. Kesic. Thank you. One quick question for you. Can I 
depart from my prepared statement for 1 minute?
    Mr. Rohrabacher. You may depart from your prepared 
statement for the whole testimony, and your testimony will be 
put into the record, but you have got 5 minutes.
    Mr. Kesic. Okay. That is fine. That is all I will need. I 
want to respond to something that you actually initiated in the 
discussion with Jonathan Moore. And that is the question about 
the issue of partition or allowing self-determination. And I 
will come back to this from my full statement. But the one 
question that has really perplexed not only Serbs but also some 
experts in this town is why the U.S. Government insists on 
taking every option off the table and claiming that partition 
is destructive when they partitioned Serbia? There seemed to be 
no qualms about changing the borders of Serbia, but yet they 
all of sudden have found the religion, true religion, when it 
comes to changing any other borders.
    And I think your position is legitimate. That is not to say 
that I agree with it, but I believe it is a question that needs 
to be asked, and this is a timely hearing to pose questions 
like that as well as the questions that Congressman Poe posed 
about the discrepancy between justice and how justice and the 
rule of law are interpreted when it comes to trying to push 
forward the independence of Kosovo.
    Now having said that let me go back and try to explain to 
you why Serbs are very skeptical about this agreement as a 
whole. Even those who have signed this agreement have expressed 
skepticism and have claimed that they signed on the basis that 
if they didn't they would be forced to accept the worst 
reality. So it wasn't out of free will as they would portray 
it, it was coerced signature. And of course that leaves 
questions of implementation, and there we agree in terms of the 
skepticism that we share about the pitfalls of continuing 
dialogue and trying to implement something that from the start 
is difficult to implement.
    Now many Serbs view that the U.S. and the EU have shown a 
consistent pattern of lying about their commitment to protect 
Serbs in Kosovo. During the '99 NATO intervention, Serbs were 
told that NATO, following the withdrawal of Serbian police and 
army, would protect them. Since the entry of NATO into Kosovo 
in June 1999, over 250,000 non-Albanians were driven from their 
homes through violence, intimidation and harassment. According 
to the OSCE Kosovo Mission in a report of October 2012, 235,000 
non-Albanians remain displaced.
    Also the U.S. constantly, and the EU constantly move the 
goalpost. The Serbs were promised that status would be dealt 
with after standards were implemented, then once that proved to 
be impossible they told the Serbs that it would be standards 
and status simultaneously. Then when Kosovo proclaimed 
independence they were told that standards would come after 
status. We are still waiting to this day to deal with the 
standards. Serbs do not have confidence in the word of the U.S. 
and the EU.
    Secondly, many Serbs also question the selective 
application of international law by the U.S. and the EU. When 
the Socialist Federal Republic of Yugoslavia was disintegrating 
in violence and conflict, the Badinter Committee ruled that 
territorial sovereignty and integrity of the republics 
prevailed over the rights of national groups to self-
determination, thus holding that Slovenia, Croatia and the four 
republics have the right to partition Yugoslavia, while at the 
same time being entitled to their own territorial integrity 
regardless of the demands of the Krajina Serbs and the Bosnian 
Serbs to self-determination. It should be noted that the 
Commission held that this was also was the case with Serbia 
itself. Most Serbs wonder why it seems that everybody but Serbs 
have a right to self-determination.
    The third point is that Serbs are also upset with what 
seems to be constant moving of goalposts by the EU and the U.S. 
when it comes to conditionality regarding Serbia's entry into 
the EU. I just want to move to my recommendations and I will 
end there.
    The first recommendation is the U.S. and the EU should 
firmly oppose any use of violence especially directed or 
threatened against the Serbs in the rth of Kosovo no matter 
from whom that threat comes from. Secondly, the EU should 
engage the Serbian leaders in the north of Kosovo and begin a 
series of discussions that would lead to their active 
involvement in all negotiations that concern their future. 
Third, the EU and the U.S. should reconsider all potential 
options for the northern Serb communities including enhanced 
autonomy, parallel shared sovereignty, the federalization-
regionalization of Kosovo and even allowing them the right to 
self-determination.
    Fourth, the EU should be encouraged to formally and 
publicly announce all of the remaining conditions being put 
before Serbia and Kosovo. That the U.S. should insist that this 
list be considered final and that no additional conditions be 
added without the consensus of all EU members.
    Fifth, the EU and the U.S. must demand that the Albanian 
dominated Kosovo Government increase its efforts to protect the 
rights of Serbs and other non-Albanians throughout the 
remaining territory under its control. Sixth, the U.S. Congress 
should organize additional hearings focusing attention and 
building support for action in improving human, minority and 
civil rights of Serbs and other non-Albanians in Kosovo.
    And finally, the EU-sponsored talks between Belgrade and 
Pristina should be continued but refocused on technical issues 
such as property rights, et cetera, so that there could be a 
gradual building of goodwill, so that then we can address this 
other issue of status. And once the issue of status is 
addressed then the U.N. should be present since it will take a 
Security Council resolution to resolve the issue of status and 
formalize it.
    [The prepared statement of Mr. Kesic follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rohrabacher. Thank you very much for your very poignant 
presentation.
    And Mr. Gjoni?

STATEMENT OF MR. ROLAND GJONI, JD, LLM (FORMER SENIOR LEGAL AND 
   POLICY ADVISOR TO EFFECTIVE MUNICIPALITIES INITIATIVE IN 
                            KOSOVO)

    Mr. Gjoni. Thank you, Mr. Chairman, and dear members of 
committee. I would like to say that I have made a full written 
statement which I wish, with your permission, to be included as 
a part of the record, and I hereby summarize the main elements 
of it.
    Mr. Rohrabacher. And no objection, so ordered.
    Mr. Gjoni. So my presentation today is mainly based from a 
policymaking perspective. I come here after working with 
Pristina institutions and many extensive experience in Serb 
communities in Kosovo with the establishment of post 
independence municipalities. So I will explain the positions of 
the parties when this EU-brokered agreement started, where did 
it end, and what does it mean for the future or the sustainable 
peace in the Balkans.
    First, I must say that in October 2012, EU High 
Representative Ashton managed to bring together for the first 
time after independence the two prime ministers, and the 
central issue revolved around the status of the northern 
predominately Serb municipalities. Pristina started from the 
prospective that the Ahtisaari Plan was sufficient to address 
all potential concerns of Serb community in Kosovo in terms of 
cultural preservation, leaving Serbs within Kosovo. And Serbia 
started with a new political platform for discussions with 
Pristina institutions which provided extensive powers for a 
Serb community in the north Kosovo extending as well in the 
south enclaves.
    After several rounds, with several workouts from both 
representative delegations, we have now seen one rejection on 
4th of April by the Prime Minister of Serbia arguing that what 
has been offered by EU does not address the concerns of the 
Serb community in the north. And on 19th of April we have a 15-
point agreement. This is now important to see what the position 
of the parties came to be after the renewed talks.
    Now Kosovo has gone beyond the Ahtisaari Plan in accepting, 
partially, the Serbian requests. For one, elevating the status 
of the Serb community to almost an autonomous monoethnic entity 
allowing the four municipalities to coalesce and have the 
police commander for the region and four police stations, a 
separate panel of judges, and I hope it is not true but it has 
been reported that under guarantees from NATO it has been 
agreed that no Kosovo Security intelligence or police forces 
will ever access or operate or in the area. Now this as you may 
better know from MCulloch v. Maryland in the United States, it 
is very consequentials for the territorial integrity of Kosovo, 
because even in Federal states, the Federal Government can and 
should in the limited areas where it is sovereign, intervene 
for different reasons. In this particular case, it appears that 
no Kosovo institution can ever reach there even if it is about 
scenarios of rebellious attitudes from a local population.
    So the second thing that I would like to point out is that 
it has been during the Ahtisaari talks the policy of 
international EU and U.S. negotiators that a human rights based 
approach and not a territorial based approach is the solution 
to Kosovo's future. And we have looked carefully to Ohrid 
Agreement and Bosnia, and without any doubt people thought back 
then that the best institutional mix for ensuring all 
communities in Kosovo was a human rights minority based 
approach modeled around Ohrid. What we see now, we see a 
further territorialization of politics, which is a departure 
from the concept of a multi-ethnic society, which is the 
lynchpin of Ahtisaari incorporated in Kosovo institution.
    The second problem that I see in this agreement is that it 
is uneven. While we can see the move of Kosovo into approaching 
or accommodating the Serb community, it has not been the 
persistence of EU to ensure that at least Kosovo is not blocked 
in the membership in the U.N. system. Of course there is some 
thrown-away provision about not blocking each other on U.N. 
integration, but what does that mean when five nations don't 
recognize Kosovo anyway, so what can Serbia help there, I don't 
understand.
    And the third is, where do we go from now? I think if there 
is any good thing that this has shown, is that EU regardless of 
economic downturn and crisis has a significant appeal in the 
western Balkans and it may be the only thing that Albanians and 
Serbs agree on is the EU integration. Therefore, I think, 
first, there is no room for complacency here. Second, there 
should be a point where EU and U.S. redirect the parties toward 
a comprehensive deal which deals with missing persons, which 
deals with war reparations, which deals with border 
demarcations and reciprocity in terms of how we treat 
minorities no matter where they are straddled.
    And this is why I think the U.S. has a significant role to 
back this agreement and ensure this is only a first step, very 
pragmatic though. Thank you very much.
    [The prepared statement of Mr. Gjoni follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank you very much for your testimony, 
and we will be anxious to read your written testimony as well. 
So you are still waiting for this comprehensive agreement to be 
brought on by the Europeans and the Americans. After 12 years 
of waiting, hope springs eternal.
    Mr. Churcher, you are next.

     STATEMENT OF MR. ROBERT A. CHURCHER (FORMER DIRECTOR, 
            INTERNATIONAL CRISIS GROUP IN PRISHTINA)

    Mr. Churcher. Mr. Chairman, firstly, I want to thank you 
and the members for the honor of being able to testify here. I 
would then say that I would like to submit my testimony for the 
record.
    I should start with an interjection to say that you have, 
really, very much taken the words out of my mouth. My views 
very much reflect yours. Despite the difficulties, I think that 
a better settlement would be self-determination in some way. I 
do appreciate the difficulties with it. Now let me summarize my 
views about this new EU-brokered agreement.
    In contrast to many, certainly outside of this room, I do 
not believe that it is a good or workable agreement. 
International commentators have already made the agreement out 
to be wonderful, but as people say, the devil is in the detail. 
In reality, without any recognition of Kosovo by Serbia, it 
leaves Pristina in limbo. There will be a roadblocked Kosovo, 
and the agreement will enable the creation of a new Republika 
Srpska in the north of Kosovo.
    Without recognition there is no way forward for Kosovo. 
Kosovo will remain dysfunctional in the absence of any real 
legal sovereign status, and Serbs will continue to want to 
claim it or claim it back. Unfortunately, to be frank, this 
agreement has been much more about making the new EU Foreign 
Service, and in particular its leader Catherine Ashton, look 
good rather than producing any long-term sustainable solution 
to the Balkans. In my view, this was any agreement at any cost, 
whatever it took to agree it.
    Without including the recognition of Kosovo by Serbia, the 
agreement simply ratifies what already exists--a Serb-run 
statelet in the north of Kosovo. All that will be changed is 
that it will now be a legal Serb-run statelet within the north 
of Kosovo. Serbia's failure to recognize the loss of Kosovo is 
a failure to recognize the defeat of the Serbian project to 
drive the Kosovos out of Kosovo in the 1990s. I regard it as 
admirable that the United States intervened decisively in the 
Bosnian-Kosovo wars, but find it puzzling and disappointing 
that the resulting peace agreements have been designed to 
appease Serbia rather than to create stability and lasting 
solutions in the Balkans.
    A much better solution than the present agreement might 
have been an agreement for territorial exchange, swapping the 
new, now Serb-populated north with the still Albanian speaking 
Presheva and Bujanovac Valleys. In contrast to the State 
Department speaker's view, I can assure you that the local 
people in Presheva do not share the feeling that Serbia is 
looking after their human rights. Unfortunately, this idea is 
probably not yet practical in international terms, but there 
has to be a way forward. The situation ratified by the new 
agreement will be disastrous in enabling the establishment of a 
second Republika Srpska.
    The only answer, in my view, is that the United States 
should use its international influence to press for Serbia to 
recognize Kosovo, and thus finally end the conflict and enable 
the Kosovo Government to move forward from what will be 
otherwise an endless uncertainty. Without recognition I believe 
we are doomed to perpetuating instability in the Balkans which 
is not in the United States' interest or that of anyone else.
    And then let me conclude by pointing out, there is 
absolutely no use to rely on Europe, unfortunately, to sort 
this out. Europe remains completely disunited and dysfunctional 
in its dealings with Kosovo, as it was and is in Bosnia. As in 
1999, only the United States has sufficient weight and 
influence to bring the Serbs to recognize reality that Kosovo 
is lost and that in order for both countries to move forward 
they need to recognize it. Thank you, sir.
    [The prepared statement of Mr. Churcher follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rohrabacher. Well, I want to thank all of our 
witnesses, and I certainly appreciate your last comments there, 
of course. Let me just note and then we will have a dialogue, a 
little back and forth.
    This religious conviction that you cannot change borders or 
it will create all sorts of problems is, I think, the major 
obstacle to having a significant peace agreement between these 
two entities, between the Kosovars and the Serbs. And it is our 
own Government that is pushing this nonsense. It is nonsense. I 
mean the Czechs and the Slovaks knew that they couldn't get 
along so they divided, and they have changed the border. The 
border what now became Czechs and Slovaks in two separate 
countries. You had the north and south Sudan. They believe that 
we should forcibly keep the north and south Sudan together? 
What would that bring? It would bring a lot of bloodshed, that 
is what it would bring.
    What about Ireland? Wouldn't it be how horrible to think 
that we are going to change the borders of Great Britain itself 
by letting these--so what if the Irish want to have 
independence, the vast majority? They are still part of the 
British Empire, and here it is. We can't change the border of 
the British Empire to just include the areas in the northern 
part of Ireland that happen to be a majority of Protestant. 
That was a good decision. That was a good decision. Let us end 
the conflict and agree that those people in the northern part 
of Ireland have the right to make their decision with a ballot 
box. But we are being told here, no, no, oh, can't do that.
    Then of course we do have to, as Mr. Kesic said, if we 
accept the fact that the United States and the allies had any 
moral foundation to coming in to help Kosovo--I want you to 
know of course that I was a huge supporter of Kosovo--and 
coming in to help them win their freedom and independence, 
because I believe in their right to make that determination, 
national self-determination. Well, if the people in the north 
don't have, how come Kosovo had that right to break away from 
Serbia? That changed borders.
    And I believe Latvia, Estonia, Lithuania, I seem to 
remember the Soviet Union as it was breaking up say, no, no, 
this is a part of Russia. It doesn't make any difference what 
those people want. They are part of Russia. And there are, of 
course do we think that it was really, we should have 
encouraged the people of Bangladesh to knuckle under and stay 
part of Pakistan? Because that is going to change the borders 
of Pakistan.
    And by the way Pakistan, what borders do they have? Who 
created Pakistan? Pakistan and most of the things we are 
talking about were created by the colonial imperialists of 150 
years ago and 200 years ago. And we are saying we have to stick 
with the decision of some drunken royalty in one of these 
countries who decided this is where the borders are going to be 
now? It is ridiculous. And what we have done by this fantasy 
that that is off the table, we have left us in a situation 
where our friends the Kosovars have now, it looks like from 
this agreement, they have now been put into a position of 
getting nothing, because this word that you can call autonomy 
authority all you want, but what we have here is an official 
recognition of the autonomy of those four northern provinces.
    And our friends in Kosovo, who I happen to be on their 
side, have got nothing to show for it. At least if we could 
have an honest agreement on the right of self-determination, 
which is what the people of Kosovo believe in, that is why they 
declared their independence, at least we could have some sort 
of a readjustment of a border that includes people who want to 
be in the country that now has emerged because of the changes 
that have taken place historically.
    So I am very disturbed by this settlement. This settlement 
will not lead to peace. This settlement will encourage those 
Serbs in the northern part, these four provinces, to work with 
Belgrade and Belgrade to work with them in order to keep this 
sort of combative relationship going, and it will not create 
less, it will create more tensions. And that is just my 
personal observations. And it seems to be that the Presheva 
Valley and the fact that you have so many Kosovars living 
there, it is almost the same sizes as the four northern 
provinces, almost same territory, almost same population, that 
it is a natural way for Kosovo and Serbia to do something real. 
Not just play with words about autonomy versus authority, but 
something real that could then serve as the basis for them 
starting to get along and try to open up their borders, try to 
have free trade between them, try to have respect for each 
other's citizens. Because we now aren't forcing people into a 
recognition of something that they don't want and they don't 
culturally feel right and historically feel right about it.
    So all of these countries what I just mentioned, especially 
the Irish, can you imagine if Britain would have said that and 
wanted to keep the Irish in? That would have been a disaster 
for Great Britain as well as, I might add, for Pakistan and 
Bangladesh and the rest of the ones. If any of you have a 
comment on what I just said, please feel free. Yes, sir?
    Mr. Serwer. Mr. Chairman, with due respect----
    Mr. Rohrabacher. Absolutely. Feel free to disagree with 
everything that I have said.
    Mr. Serwer. I do disagree.
    Mr. Rohrabacher. Okay. Yes, sir.
    Mr. Serwer. I disagree because I think you are failing to 
make some important distinctions between moving the border to 
accommodate ethnic differences and changing the status of an 
existing boundary or border, which is what we have done in the 
Balkans.
    Mr. Rohrabacher. So moving the border and changing the 
border are two different things?
    Mr. Serwer. Moving the border and changing its status are 
two completely different things. Moving the border to 
accommodate ethnic differences leads to an infinity of movement 
of borders. It can never be----
    Mr. Rohrabacher. Well, isn't that what we did with Kosovo? 
Isn't that what----
    Mr. Serwer. No, we did not do that with Kosovo. We kept the 
boundary between the province of Kosovo, the one time Serbian 
province of Kosovo, and Serbia proper. We kept that exactly 
where it is. That is why we have the problem that we have.
    Mr. Rohrabacher. By the way, who drew those borders?
    Mr. Serwer. Those borders were drawn under Tito, they were 
changed various times.
    Mr. Rohrabacher. Tito, was he a democratically elected----
    Mr. Serwer. No, but look----
    Mr. Rohrabacher. How about Stalin changing the borders of 
Ossetia and Abkhazia for Georgia?
    Mr. Serwer. If you set off an infinite series of border 
changes you also precipitate ethnic cleansing, and that would 
be a disaster for the Balkans. I can guarantee you that if the 
north of Kosovo is lost to Kosovo, you will have radical 
Albanians who will seek to expel Serbs from south of the Ibar 
and who will seek union with Albania and with Macedonia. You 
would say, let them. I say that is a scenario for an extreme 
outburst of violence.
    Mr. Rohrabacher. Actually, I would never say, let them. I 
believe that keeping large hunks of people who are contiguous 
to another border can't be in the middle of a country 
obviously, but keeping them artificially in that other country 
is what creates violence, which creates people wanting to 
commit some sort of attack on those people, and their 
retalitation against those. It has happened over and over 
again.
    And what doesn't create, I mean this idea that we are going 
to instill in the rule of law and that that is what is going to 
make the Irish give up their notion that they want to be 
independent or the Bangladeshis or the people, the Serbs north 
of that river going to give up their consciousness as being 
Serbs, it doesn't work that way.
    Mr. Serwer. Nobody is asking them to give up the 
consciousness of being Serbs. In fact, there are all sorts of 
provisions in the Ahtisaari Plan for maintaining the links to 
Serbia. They get dual citizenship. But to open Pandora's box 
and allow an infinite series of border changes to accommodate 
ethnic differences would be a mistake. There are Bosniaks in 
Serbia who would want to be part of Bosnia.
    Mr. Rohrabacher. And so you believe that the boundaries set 
up by brutal tyrants and kings and royalty have to be 
maintained because it is going to open Pandora's box, even 
though there are significant groups of people who have a 
cultural and historical identification with each other who want 
to become a nation, but if violates what King Charles or some 
monarch someplace did back 2 or 3 years ago----
    Mr. Serwer. I believe that everybody's rights should be 
protected within the borders in which they happen to find 
themselves, yes, because anything else----
    Mr. Rohrabacher. So you oppose the Kosovars' independence?
    Mr. Serwer [continuing]. Leads to death and destruction.
    Mr. Rohrabacher. Okay, but you then oppose Kosovars', when 
they rose up and said no, we want to be independent, you were 
opposed to that, right, because that would change the borders 
of Serbia?
    Mr. Serwer. I was not the first one to endorse independence 
for Kosovo, I will say that. But the behavior of Serbia in 
response to that uprising unquestionably made independence the 
only solution. It was achieved not by moving the border to 
accommodate ethnic difference, but by changing the status of a 
preexisting border. And I believe that that decision saved 
lives, yes.
    Mr. Rohrabacher. Let me suggest to you that, and then I 
will go to the panel, suggest to you that had, when Yugoslavia 
just broke up, had the West been very clear that different 
people have a right to vote on their self-determination and 
included the Kosovars in that, that would have been a whole, 
the bloodshed that happened wouldn't have happened. Instead we 
had Jim Baker down there misstating our case to, was it 
Milosevic, and let him think that well, whatever force he needs 
to use to keep things together that is, we are looking for you 
to be the force down here of stability. And of course that just 
was a go-get-them type of thing.
    Shirley, and then Mr. Kesic, and then Mr. Engel will have a 
chance or whoever else wants to jump in. Yes?
    Ms. Cloyes DioGuardi. To my colleague I want to ask a 
question because I want to ask many. Why are we always talking 
about potential Albanian violence in Macedonia, in the north? 
Why is that happening? I think one of our problems is the 
constant discussion of a kind of false parity and 
characterization of a war that was supposedly based on ethnic 
and religious differences. This was not the case.
    This was a land grab. And we sat back as you know, our 
State Department, the EU, while Milosevic made his genocidal 
march across Europe over 10 years. What I would like to see 
right now is for this agreement to be ground to a halt, because 
I understand very much what you are trying to say about the 
issue of Presheva and the north. But the problem is we are in 
trouble now. Presheva, the Albanian majority of Presheva, were 
never brought to the discussion to begin with.
    And Mr. Churcher, was I correct in saying the State 
Department was wrong when it said that Mr. Moore said that the 
Albanians in the Presheva Valley had civil rights and human 
rights protections? That is absolutely not the case. They have 
second, if not third-class citizenship. So how do we do 
something now to turn this around so that everyone is forced to 
look at the true conditions of what is happening in the 
Albanian scene?
    Mr. Rohrabacher. What we could do is we can make believe 
that the word authority and autonomy just have different 
meanings and we could make pretend what those words mean.
    Ms. Cloyes DioGuardi. Well, we already have because the 
Association of Serbian Municipalities is, in effect, an 
autonomous region already. To a great extent we have lost the 
north.
    Mr. Rohrabacher. Especially when you suggest that the 
forces of the country can't go into the area, and that is not 
an autonomy. Mr. Kesic, do you have a comment?
    Mr. Kesic. Yes, Mr. Chairman. It is, for me, the most 
frustrating thing is this relative moralism that comes out in 
the official position of the U.S. Government, but also in terms 
of some analysts here in Washington, DC, and also in Europe. 
You have this argument, for example, that you can change the 
borders of Yugoslavia. And by the way, the U.S. Government was 
against that at that time as you know, Mr. Chairman.
    Mr. Rohrabacher. That is right.
    Mr. Kesic. We opposed it, but it happened. Imperial powers 
have come to the Balkans throughout history believing that they 
were setting borders that were going to last for all ages. 
Every single time the borders changed. We are just the latest 
of the great powers who have come into the region, and our 
hubris tells us that what we are going to do is going to last 
for all time. History will prove us wrong, unfortunately, I 
just hope it is not through more bloodshed.
    Now to go back and to say as was said here, for example, 
that Serbia somehow lost its right to Kosovo because of the use 
of violence, then I would lay before the question, what is that 
magic point where a country loses the right to part of its 
country because of ethnic persecution and violation? Is it 
60,000 Kurds in Turkey that are killed? Is it 230,000 Serbs and 
non-Albanians driven out of Kosovo? What is that magic point 
where a people become entitled to self-determination? It would 
be very useful as a guideline for all of these oppressed 
peoples throughout the world to understand, what is the 
position of the U.S. Government on this?
    Mr. Rohrabacher. I appreciate that comment, and if you do 
believe in self-determination by a vote of the people you don't 
have to worry about that, do you, because you have got that one 
standard. And yes, why don't we go right on down and then we 
will let Mr. Engel have his chance to question. Yes, sir?
    Mr. Gjoni. Mr. Chairman, with your permission I will come 
back to a point that you, in passing, mentioned about relying 
more on internationals even after 13 years. And I would 
respectfully disagree with you. What I am saying in my 
presentation, and it is clear in the full, written statement, 
is that I don't believe in hypocrisy. If in 2008, Russia, EU 
and U.S. did a lot of arm twisting to say to Kosovo that the 
way forward is a melting pot. Now you either stick to it or you 
say let us go to border changes, open all the cards, let us 
talk about Albania and nationalism effects in Bosnia and 
Croatia, but openly so, just put the cards on the table.
    So my perspective is that I think that the idea of EU is to 
Europeanize the Balkans, not to further Balkanize the north, 
and wait for the moment when Serbia or Kosovo can out-trick, 
out-smart, or out-maneuver each other through the help of great 
powers. Mine is for a no-borders Balkans where minorities just 
leave the Serbs or Albanians where they are, and there are 127 
laws adopted for that matter in Kosovo. Thanks.
    Mr. Rohrabacher. Again, I don't know why that you have a 
vast majority of people in a certain area that that is not to 
be taken into consideration. That their views are, again, we 
have got Serbians who are north of that river who do not want 
to be part of this country, and there is a natural border, and 
it is the same number of Kosovars just in a valley not too far 
from there in about the same area, but nobody wants to talk 
about adjusting a border because of this--and I will have to 
say it from my point of view, and I know you are very educated 
people who can disagree honestly on it--but this absolutely 
hysterical idea that borders can't change.
    It is people, we as the United States started with what, 
we, the people of the United States, I mean we are here because 
we are declaring our independence. We declared our independence 
from Great Britain. That is what the Declaration of 
Independence was, that the people have a right by a majority to 
determine their future.
    And last question, and then Mr. Engel. Yes, sir? Or a 
comment, go right ahead.
    Mr. Churcher. To reenforce your remarks about borders----
    Mr. Rohrabacher. Well, then you can have twice as much 
time.
    Mr. Churcher [continuing]. And to comment on Mr. Serwer's 
point. He referred all the time to opening the possibility of 
an infinity of changes, and he skated over slightly the fact 
that there have, in fact, been an infinity of changes in this 
particular area, in 1912, in the 1920s and '30s, again in the 
'50s. At times in Yugoslavia, different ministries used 
different borders in this area. There was nothing fixed or 
immutable about these borders. And as you said before, my view 
remains that if people wish to change them voluntarily, that is 
entirely different from imposed border changes. The key is, if 
people want to vote to be somewhere else then they should be 
able to.
    And just then very quickly to answer two points which came 
up earlier. The Yellow House was remarked to be by rumor in 
Kosovo. It is not. It was rumored to be in Burrel, which is in 
Albania, just as a point. My end view is that those stories are 
fantasy, but you wouldn't want to catch a cold in Burrel, let 
alone have a transplant.
    And finally, to answer your question about the KSF in the 
north, my understanding is that there is a further sort of 
sidebar within this agreement that, in fact, the present 
Serbian Civil Defense Force in the north will in some way 
attempt to be incorporated within the Kosovo Security Forces as 
a Serb part in the north, again a separate thing under the same 
sort of arrangements that have been made for the police and 
justice sectors. Thank you, sir.
    Mr. Rohrabacher. Well, thank you very much. It would seem 
to be that--and then Mr. Engel can, or Mr. Keating, would you 
mind if Mr. Engel----
    Mr. Keating. I was just going to say, Mr. Chairman----
    Mr. Rohrabacher. Okay.
    Mr. Keating [continuing]. Why don't we yield, with your 
permission, to Mr. Engel?
    Mr. Rohrabacher. Okay, and let me just, one point and that 
is, it seems to me if we have had armed forces there, and I 
have visited our troops there many times, if we have armed 
forces there and not just from our country but from all these 
countries, it would be better to have them there to strongly 
and emphatically enforce a pre-election, run the election for 
people to determine how they want to run, what sovereignty they 
are willing to give, rather than have a force there for 13 
years just to deter any type of ethnic violence that might 
happen, and hope that in another 20 years from now they will 
forget the historic differences between them.
    Mr. Engel?
    Mr. Engel. Thank you very much, Mr. Chairman, and you and I 
have had many, many, many discussions on this through the 
years. And while we may disagree on this point, you have 
certainly, as I said in my opening statement, been a champion 
for freedom in the region. And since I was among the first, if 
not the first person, Member of Congress, to endorse the 
independence of Kosovo, and we looked for people who would take 
principled position on this issue, you were right there all the 
time as well. So I want to say that publicly because I have 
lived with this issue for many years and you were always right 
there fighting for peace and justice.
    I essentially disagree with moving the borders. If you 
could somehow just do it with Kosovo and Serbia and kind of 
move the borders and it would have no ramifications on any 
other place in the Balkans I would say, well, okay, if both 
sides agree let us just do it and do it quickly, and that would 
be it. But I do agree with Mr. Serwer that this would just, in 
the Balkans anyway what would you do with western Macedonia 
which is a vast majority Albanian? What would you do in Bosnia 
when Republika Srpska wants to join Serbia? And you would just 
keep going, keep going. There would almost be no end. But I do 
know how sincere you are and how thoughtful you have been with 
all these issues.
    I really wanted to talk about the agreement, because I was 
told that most of you, if not all of you, didn't like this 
agreement between the Kosovars and the Serbs. I like the 
agreement. I like it not because I think every part of it is 
just, I like it because I think it offers the potential of hope 
and peace to the Balkans. I would hope that ultimately both 
Kosovo and Serbia would be members of the EU, and I think when 
the people are all in the EU, borders are not going to be that 
important because people will have access to all places.
    I mean I was, I think, the first Member of Congress to 
advocate for an independent and free Kosovo, but I also set up 
a time that Serbs had a lot of interest there that needed to be 
respected, for instance, monasteries and things like that. I 
think it is possible to do that.
    I have met with Slobodan Petrovic. He is the deputy Prime 
Minister in Kosovo. I have met with him in Kosovo. I have met 
with him in Washington. I have met with him in New York. He 
plays a very important role. I know perhaps many Serbs don't 
like it, but I have watched him and I have seen him be very 
constructive. He is a Serb and he is part of the majority in 
the Kosovo Parliament and a deputy Prime Minister. I met him in 
the municipality of Gracanica. That is a Serb municipality in 
Kosovo. I sat and met with him and bunch of other Serbs who are 
participating in the system, in the election. We had lunch. We 
sat for hours and hours, and had very, very frank talks.
    I would remind everybody here that most of the Serbs, the 
majority of the Serbs living in Kosovo are in southern Kosovo 
not in northern Kosovo. When Serbs south of the Ibar first 
voted in Kosovo they said they would only vote in local 
elections, but then they voted in Kosovo's national elections. 
So these things can work if people really put their minds to 
it. In negotiations you don't get everything you want. I mean 
that is the point of negotiations. You get what you need to get 
and the other side gets what they need to get, and if you have 
an agreement you move on from there.
    I think that Prime Minister Thaci had pressure on him, and 
I think he passed the test and was very courageous in moving 
forward with this agreement. And I think the same for Prime 
Minister Dacic, also had pressure. Sometimes, I think you have 
got to look beyond the rhetoric. You have got to look beyond 
the passion. In the Balkans, especially, there are all kinds of 
grievances. Grievances, slights that have been going on for 
centuries. I would hope that this agreement would be a small 
step in moving the Balkans into the 21st century. And again, I 
hope that Kosovo and Serbia become part of the EU and that 
borders would not be that important any more.
    So I just wanted to say that. I think it is easy to take a 
position in opposition to agreements where not everybody gets 
everything that they want, but I think it is a courageous step 
forward and I think it will be good for the region. And I have 
in my 24, now 25 years in Congress, I have not worked harder on 
any issue than I have worked on this issue. I know it backwards 
and forwards. I respect everybody's opinion up here. You are 
all good witnesses and intelligent people and have your vantage 
points. But I think that when you boil it all down, this 
agreement has some promise for the future, and I hope it will 
be implemented and I hope we will take little steps that will 
be moving forward.
    And I think the role of the United States in this is very, 
very important because we are trusted in the region. I 
certainly know the Albanian community in the Balkans better 
than I know any community in the Balkans, and I know that the 
Albanians like and trust the United States and are very pro-
West. The day that Kosovo issued its independence, there were 
more American flags in the streets of Pristina than there were 
Albanian or any other kind of flags. So there is a very strong 
tie in the Albanian communities of Kosovo, and Albania, 
frankly, of trusting the United States, of a belief in the 
United States, and wanting to work with the United States.
    So I hope the administration will be there every step of 
the way. And it doesn't mean it is going to be easy, and it 
doesn't mean that there still aren't perceived slights and 
threats and everything on both sides. But I hope it means we 
are moving forward, and I hope the United States is there every 
step of the way. Because I don't believe that there can be as 
much progress without the United States right there as there is 
with the United States right there. And I thank you, Mr. 
Chairman, for letting me express these sentiments.
    Mr. Rohrabacher. Might I suggest to my colleague that if 
they have some comments, you might want to have a little 
dialogue with our panel?
    Mr. Engel. Sure.
    Mr. Rohrabacher. Whoever, go.
    But you are in charge of pointing out who you want here.
    Mr. Engel. Okay. Shirley, yes.
    Ms. Cloyes DioGuardi. Congressman Engel, thank you. I very 
much agree with your long-term perspective. I think there is no 
one at this panel who would not want, obviously, just and 
lasting peace and stability in the region, and certainly, 
ultimately, the integration of the EU. But I think we have to 
look at the specifics of this issue. For example, you have said 
something, I think, that is very important. The majority of 
Kosova Serbs live in the central and southern part, two-thirds 
do. Sixty-six percent of the Kosova Serbs voted in the last 
election. Those Serbs are well integrated into Kosova. Why is 
it that the north is a different story?
    And I am concerned that we tend to forget about how the 
north became to be. I mean after the war ended, the French took 
over the area. It became the part of Kosova that Albanians were 
thrust out of. Yes, there are a majority of Serbs in the north, 
but what has transpired since the war is Belgrade extremists, 
Serb extremists in the north backed by Belgrade, and we have 
had lawlessness, corruption, smuggling, a complete breakdown.
    So when we go now, and by the way we should add one other 
thing. When independence was declared, what happened? Our own 
NATO troops even stood on the sidelines while Serb extremists 
blew up customs, courthouses, destroyed many things in 
reaction. So now when we look at the current agreement that has 
come forward, I think we have to be realistic. Does it solve 
the root causes of the crisis? Does it change the conditions in 
the north? And the devil is always in the details?
    And when you look at the ability of what will be, and 
Chairman Rohrabacher talked about it, a police force and an 
executive that very much has a lot of autonomy, we will now 
see, I think, a different relationship--and this is sad--
between the northern municipalities where four mayors will 
basically decide who the Kosova chief of police will be. There 
will be a different relationship, potentially, between the 
north and the Serb communities in the central and south areas 
of Kosova because there isn't any kind of real willingness on 
the part of the Belgrade Government for Kosova to succeed in 
the future in what you are talking about, long-term development 
and integration into Europe.
    So this is why I said, before you came back into the room, 
to Chairman Rohrabacher, I would like to see this whole 
agreement ground to a halt. I know that may be the ultimate 
illusion, but if we had more U.S. interaction and less of a 
backseat on the part of the administration and an ability to 
reconnect at least in a very full engagement during this 
process where we are supposedly now going up until April 26th, 
look how soon that is, to talk about the implementation, and 
that is when we bring Presheva back on the table.
    Mr. Engel. Well, I would say this. The incentive for the 
Serbs to try to make this happen is that they know that they 
cannot become an EU member unless they normalize, to an extent, 
their relations with Kosovo. That is the incentive. And 
likewise, the Kosovar Albanians understand that if they want to 
be integrated into Europe they have got to have some kind of 
agreement with the Serbs. So I think that that is the glue that 
binds them, and we have to again, America, United States, be 
there every step of the way.
    Many things similar to what you just said, Shirley--and I 
respect the work you have done through the years--was said 
about the Serbs in the south. That they would never 
participate. That they would never accept it, until people 
started participating. And then they saw benefits in their 
lives of being part of the Kosovar state. I believe a similar 
thing can happen in the north. I think we have to try, and I 
think that again while there's no magic wand and obviously 
people are born and raised in their families talking about 
previous wars 100 and 200 years ago, 500 years ago, and 
whatever, that is ingrained in people.
    But I think we need to understand that once Belgrade feels 
that they may not like everything in the agreement but if it 
gets them into the EU that is the price they have to pay. And 
conversely, the same thing with the Kosovar Albanians. So I 
think that that is the glue that holds them together, the 
incentive to get into the European Union. And that is why I 
think this is a good agreement. I don't think it is a great 
agreement for either side, but I think it is a good agreement 
for either side. And I think, again, Thaci and Dacic deserve a 
lot of credit for their courage.
    Mr. Kesic. Thank you, Mr. Engel. Just a few quick comments 
and ideas for you to think about. First, I agree with you. It 
would be wonderful when the time comes when borders are 
unimportant. But the Serbs in the north have a hard time 
understanding, if borders are to become unimportant why are the 
borders of Kosovo so important to be established? If the goal 
is to make borders irrelevant, why force the Serbs in the north 
to accept borders and have to impose it on them, which leads me 
to my second statement, which is that the only way this 
agreement can be forced on the Serbs in the north is through 
the use of force. And I don't think any one of us in this room 
would like to see the use of force against anybody in the 
region. There has been already too much use of force.
    So if we say that this is not an enforceable agreement, 
doesn't mean that we don't support the process of negotiations 
and the general idea that agreements need to be reached between 
conflicting parties, it is just the skepticism that this 
particular agreement, for all the reasons that were laid out 
from different perspectives, are going to create more problems 
on the ground and lead us to this decision of whether or not to 
use force. And I hope that this committee as well as the U.S. 
Congress comes firmly down against the use of any force against 
anybody in the region in any future scenario.
    And finally, the EU process I wish could be sped up, but we 
have to be realistic. What the remaining countries of the 
western Balkans are looking are, first, the very uncertain end 
of the line. Nobody knows, first and foremost, what is going to 
happen with the EU. Secondly, nobody knows how long the process 
will take. We heard the representative of the administration 
say it took Croatia 10 years, so that we can then start the 
clock rolling perhaps for Serbia for the next 10 years, but we 
are not sure. My own opinion is that realistically, in the best 
case scenario it will take 15 to 20 years, and in the meantime 
we have a security vacuum that needs to be filled.
    And I think we need to have everything on the table to 
consider including the ideas of the chairman in order to better 
approach dealing with these issues in a durable way, in a long-
term way. Thank you.
    Mr. Engel. Well, let me say this. I have long felt that 
Belgrade was lacking in leadership of people with vision who 
would take their people into the future. It is very easy to be 
as radical as you want to be. We do it here in this country. It 
is human nature. You throw red meat at the crowd. Republicans 
do it. Democrats do it. And you can all do that. But I think if 
you are really trying to foster a change that it takes 
concessions and at least an attempt to understand what the 
other side is thinking and needs.
    So we can all pick apart this agreement all we want. There 
are things anyone could pick apart. I could pick it apart. But 
I instead would like to accentuate the positive. I think there 
are a lot of positives in this agreement that we can hopefully 
see the people of the Balkans building on for the future so 
that they could live side by side and have a better future for 
their people.
    I remember the northern Ireland situation. I thought that 
was a situation that would never be solved. And look at it. It 
was solved because people decided that it was time to put aside 
these fights forever and look toward a better future for their 
children. I hope that is done here in the Balkans. I hope it is 
done in the Middle East regarding the Israeli-Palestinian 
conflict. I think it was done in Ireland. I think that there 
are always things that we think should be changed a little bit, 
but in negotiations, you don't get everything that you want.
    And the incentive, I think, for the people of Kosovo is 
that they deserved their independence and that they can be a 
country and are a country that will be recognized as an 
independent country. It is one thing--when I used to go around 
and talk about independence for Kosovo, and again I was the 
first Congressman to say that I supported independence and have 
worked very hard for it, I used to say, and this is where Mr. 
Rohrabacher, because he and I have discussed this many times, 
feel strongly about self-determination and the right to exist. 
I used to say, it is one thing to say that the former 
Yugoslavia should not have broken up and that everybody should 
stay together, but once it did break up and once you had 
Croatia and all these different countries deciding that they, 
Macedonia, et cetera, would be independent, I felt very 
strongly that the people of Kosovo had that same right to self-
determination. I hope again that with the EU borders will not 
be that important.
    And you are right, Mr. Kesic, it might take 10 or 15 years. 
I hope not. I hope not. Can I guarantee that it won't? I can't. 
But I think if people want to put the past, the bad elements of 
the past behind them, I think that extreme nationalism is just 
a path to destruction. And maybe trying to forge an agreement 
with a gentle push of the United States, maybe that is a better 
path to a better future for all the peoples in the Balkans. 
Thank you, Mr. Chairman.
    Mr. Rohrabacher. Well, thank you very much, Mr. Engel, for 
all you have done. And his whole career has been trying to be a 
positive force in that part of the world. I guess I have been 
out trying to stir things up and he has been trying to make 
things better. But we both are trying to make things better.
    Mr. Engel. You have been trying to make things better too, 
and I applaud you for it.
    Mr. Rohrabacher. All right. And we have time for just a few 
more questions from Mr. Keating, and then we are going to have 
to close up.
    Mr. Keating. Thank you, Mr. Chairman. And there is one 
thing I think the people here can get a sense of, we have the 
ranking member of the full committee and we have the chairman 
here, and their interesting concerns of the Balkans is intense 
and it is real and that is a good thing that there is that much 
feeling for our country and the representatives to get 
involved.
    I am newer to the scene. I have a different approach. I 
really was going to use the same analogy that Mr. Engel used 
with northern Ireland and Ireland in terms of the emotions and 
the feelings, and the feeling by most that they would never 
succeed. It is interesting, even though it is centuries 
difference, some of those same arguments that I have heard you 
can say about our country, when we were starting our own 
country that there is not a strong enough authority, there is 
not a strong enough administration to pull things together. We 
are not in a position yet to do those things. And we had some 
tough times and we had a civil war along the way, but we have 
succeeded in that process here in the United States as well.
    So my view that I just want to address the one question on 
is just the belief that this cannot be done just with two 
countries. That it is really a regional issue, has regional 
impact. And I believe, personally, that progress and stability 
and prosperity will come through economic means. I think we 
have seen it so many times. We have seen it in Europe. We have 
seen it throughout the globe. So with the region as a whole as 
the context, what we do, I guess if I had to ask one question 
given the time, Mr. Serwer, I would just like to say, what do 
you think the April 19th agreement would have on the region on 
other areas if this is to progress and we make progress, what 
would it do with the Presheva Valley area and Serbia, 
Macedonia, Bosnia, what could it be? Because I think as hard as 
the road is ahead with this agreement there could be great 
regional progress. It can be a great example to go forward for 
other areas too. Could you address that please?
    Mr. Serwer. I agree entirely, Mr. Keating, and it is 
suggested in my testimony that northern Kosovo could be a model 
of reintegration. I must say, in the initial stages though, I 
think there may be some protests in southern Serbia among 
Albanians asking for some of the same things that people in the 
north are getting in this agreement.
    But ultimately I think the point is this. If partition were 
to take place you would have real trouble in Macedonia and real 
trouble in Bosnia and southern Serbia. With this agreement, as 
imperfect as it may be from the point of view of some of my 
colleagues, I think you have the potential, if fully 
implemented, for a decent sort of reintegration that could 
really help with the rest of the Balkans. And it is very much 
my hope that the authorities in Pristina and Belgrade will take 
the implementation seriously.
    And I see no reason why it is unworkable, frankly. It 
leaves a large amount of room for self-governance, but it 
incorporates the north into the legal constitutional structures 
of Kosovo, and if they are sincere about initialing this 
agreement, and I think the EU will ensure that they remain 
sincere by not giving out any goodies until they continue with 
implementation, I think it is workable. I think it could be a 
real step forward for the region.
    Mr. Keating. Well, I yield back my time, Mr. Chairman. The 
hour is late.
    Mr. Rohrabacher. I would like to thank our panelists, and 
thank you, each and every one. You added, each, a lot of spice 
to our meal of ideas, and I want to thank Eliot and our ranking 
member for adding to this hearing. I think we have had a very 
good discussion and aired a lot of ideas and concepts, and I 
appreciate each and every one of you.
    The one little thing I left out on my list, I left out of 
the list that Montenegro was permitted to have a vote by the 
Serbs, Montenegro. And the Serbs could have just said, no, no, 
no. Montenegro, that is part of our country. And that is like a 
state. It is not really like a separate country. And by doing 
that they let those people have their freedom. And I am just 
sorry that that didn't happen with Kosovo a long time ago. But 
I think the Serbs demonstrated with Montenegro that this type 
of thing can work, and I would hope eventually all of these 
people understand that these borders are artificial and they 
should have free trade and work together. And once you get 
something like that going where there are all those countries, 
people will be crossing the borders and making money and 
building things, and positive things such as that. And that is 
a vision we all have is a Balkans at peace and not a Balkans 
where people are at war with one another.
    So thank you all very much, and this hearing is adjourned.
    [Whereupon, at 5:48 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
